<html>
<title> - OVERSIGHT HEARING ON REAUTHORIZATION OF THE COASTAL ZONE MANAGEMENT ACT</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]



 
OVERSIGHT HEARING ON REAUTHORIZATION OF THE COASTAL ZONE MANAGEMENT ACT

=======================================================================

                           OVERSIGHT HEARING

                               before the

      SUBCOMMITTEE ON FISHERIES CONSERVATION, WILDLIFE AND OCEANS

                                 of the

                         COMMITTEE ON RESOURCES
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                   FEBRUARY 25, 1999, WASHINGTON, DC

                               __________

                            Serial No. 106-6

                               __________

           Printed for the use of the Committee on Resources


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
           Committee address: http://www.house.gov/resources




                     U.S. GOVERNMENT PRINTING OFFICE
55-183                       WASHINGTON : 1999



                         COMMITTEE ON RESOURCES

                      DON YOUNG, Alaska, Chairman
W.J. (BILLY) TAUZIN, Louisiana       GEORGE MILLER, California
JAMES V. HANSEN, Utah                NICK J. RAHALL II, West Virginia
JIM SAXTON, New Jersey               BRUCE F. VENTO, Minnesota
ELTON GALLEGLY, California           DALE E. KILDEE, Michigan
JOHN J. DUNCAN, Jr., Tennessee       PETER A. DeFAZIO, Oregon
JOEL HEFLEY, Colorado                ENI F.H. FALEOMAVAEGA, American 
JOHN T. DOOLITTLE, California            Samoa
WAYNE T. GILCHREST, Maryland         NEIL ABERCROMBIE, Hawaii
KEN CALVERT, California              SOLOMON P. ORTIZ, Texas
RICHARD W. POMBO, California         OWEN B. PICKETT, Virginia
BARBARA CUBIN, Wyoming               FRANK PALLONE, Jr., New Jersey
HELEN CHENOWETH, Idaho               CALVIN M. DOOLEY, California
GEORGE P. RADANOVICH, California     CARLOS A. ROMERO-BARCELO, Puerto 
WALTER B. JONES, Jr., North              Rico
    Carolina                         ROBERT A. UNDERWOOD, Guam
WILLIAM M. (MAC) THORNBERRY, Texas   PATRICK J. KENNEDY, Rhode Island
CHRIS CANNON, Utah                   ADAM SMITH, Washington
KEVIN BRADY, Texas                   WILLIAM D. DELAHUNT, Massachusetts
JOHN PETERSON, Pennsylvania          CHRIS JOHN, Louisiana
RICK HILL, Montana                   DONNA CHRISTIAN-CHRISTENSEN, 
BOB SCHAFFER, Colorado                   Virgin Islands
JIM GIBBONS, Nevada                  RON KIND, Wisconsin
MARK E. SOUDER, Indiana              JAY INSLEE, Washington
GREG WALDEN, Oregon                  GRACE F. NAPOLITANO, California
DON SHERWOOD, Pennsylvania           TOM UDALL, New Mexico
ROBIN HAYES, North Carolina          MARK UDALL, Colorado
MIKE SIMPSON, Idaho                  JOSEPH CROWLEY, New York
THOMAS G. TANCREDO, Colorado

                     Lloyd A. Jones, Chief of Staff
                   Elizabeth Megginson, Chief Counsel
              Christine Kennedy, Chief Clerk/Administrator
                John Lawrence, Democratic Staff Director
                                 ------                                

      Subcommittee on Fisheries Conservation, Wildlife and Oceans

                    JIM SAXTON, New Jersey, Chairman
W.J. (BILLY) TAUZIN, Louisiana       ENI F.H. FALEOMAVAEGA, American 
JAMES V. HANSEN, Utah                    Samoa
WAYNE T. GILCHREST, Maryland         BRUCE F. VENTO, Minnesota
RICHARD W. POMBO, California         PETER A. DeFAZIO, Oregon
WALTER B. JONES, Jr., North          NEIL ABERCROMBIE, Hawaii
    Carolina                         SOLOMON P. ORTIZ, Texas
MARK E. SOUDER, Indiana              FRANK PALLONE, Jr., New Jersey
ROBIN HAYES, North Carolina          CARLOS A. ROMERO-BARCELO, Puerto 
MIKE SIMPSON, Idaho                      Rico
                                     ADAM SMITH, Washington
                    Harry Burroughs, Staff Director
                    John Rayfield, Legislative Staff
               Jean Flemma, Democratic Legislative Staff



                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held February 25, 1999...................................     1

Statement of Members:
    Faleomavaega, Hon. Eni, a Delegate in Congress from the 
      District of American Samoa.................................     2
        Prepared statement of....................................     3
    Gilchrest, Hon. Wayne T., a Representative in Congress from 
      the State of Maryland......................................     7
    Goss, Hon. Porter J., a Representative in Congress from the 
      State of Florida...........................................     4
        Prepared statement of....................................     5
    Pallone, Jr., Hon. Frank, a Representative in Congress from 
      the State of New Jersey, prepared statement of.............    44
    Saxton, Hon. Jim, a Representative in Congress from the State 
      of New Jersey..............................................     1
        Prepared statement of....................................     2
    Vento, Hon. Bruce F., a Representative in Congress from the 
      State of Minnesota.........................................     7

Statement of Witnesses:
    Cooksey, Sarah W., President, Coastal States Organization....    35
        Prepared statement of....................................   118
    Fote, Thomas, Jersey Coast Anglers Association...............    22
    Garcia, Terry D., Assistant Secretary of Commerce for Oceans 
      and Atmosphere, Department of Commerce.....................     9
        Prepared statement of....................................    68
    Hershman, Marc J., Director and Professor, School of Marine 
      Affairs, University of Washington..........................    33
        Prepared statement of....................................    52
    Lytton, Gary D., President, National Estuarine Research 
      Reserve Association........................................    38
        Prepared statement of....................................   130
    Park, Howard, Consultant, Personal Watercraft Industry 
      Association................................................    20
        Prepared statement of....................................    46
    Savitz, Jacqueline, Executive Director, Coast Alliance.......    18
        Prepared statement of....................................    84
    Shinn, Jr., Robert C., Commissioner, Department of 
      Environmental Protection...................................    31
        Prepared statement of....................................   110
    Response to questions from Mr. Faleomavaega..................    57
    Letter to Mr. Garcia from Mr. Young..........................    57
    Response from Marc Hershman to questions from Mr. 
      Faleomavaega...............................................    58

Additional material supplied:
    Briefing Paper, Committee on Resources.......................    59

Communications submitted:
    Issues and Problems Associated with Personal Watercraft in 
      Barnegat Bay, Melissa Chin, Cook College Cooperative 
      Education Program, Rutgers, The State University of New 
      Jersey.....................................................    95
    National Ocean Industries Association and the American 
      Petroleum Institute, prepared statement of.................    55


OVERSIGHT HEARING ON REAUTHORIZATION OF THE COASTAL ZONE MANAGEMENT ACT

                              ----------                              


                           FEBRUARY 25, 1999

              House of Representatives,    
        Subcommittee on Fisheries Conservation,    
                                   Wildlife and Oceans,    
                                    Committee on Resources,
                                                    Washington, DC.
    The Subcommittee met, pursuant to other business, at 10:38 
a.m., in Room 1334, Longworth House Office Building, Jim Saxton 
(chairman of the Subcommittee) presiding.

STATEMENT OF HON. JIM SAXTON, A REPRESENTATIVE IN CONGRESS FROM 
                    THE STATE OF NEW JERSEY

    Mr. Saxton.  We will now proceed to our second order of 
business. This section of the Subcommittee meeting is a 
hearing. The Subcommittee on Fisheries Conservation, Wildlife 
and Oceans will come to order for this section.
    Today, we are discussing the Coastal Zone Management Act, 
known as CZMA, enacted by Congress in 1972. CZMA provides 
grants to states that voluntarily develop and implement 
federally-approved Coastal Zone Management Plans.
    It also allows states with approved plans the right to 
review Federal actions to ensure they are consistent with those 
plans. It authorized the National Estuarine Research Reserve 
System as well, which all of my friends from New Jersey know it 
is extremely important to us.
    I am a sailor and protection of the fragile coastal 
ecosystem has been a priority of mine since I came to Congress 
in 1984. The Barnegat Bay Watershed includes portions of the 
Edwin B. Forsyth National Wildlife Refuge, which provides 
nesting habitat for migratory birds along the Atlantic flyway.
    Threats to these creatures necessarily should be addressed 
within the context of CZMA. One such threat is the use or 
misuse of personal watercraft, also known as jet skis or PWCs, 
particularly when they are used in shallow water.
    This environmental impact of PWCs is often cited as the 
following:

    (1) Wildlife Disturbance: PWCs shallow draft and high 
maneuverability are not present in larger boats, and allow PWCs 
to enter sensitive areas not assessable by larger motorized 
boats.
    Once there, they disturb nesting birds and wildlife. Some 
studies indicate that when startled by PWCs, nesting birds have 
trampled their eggs. Seals have abandoned their pups and other 
marine mammals have avoided certain areas.
    (2) Destruction of Aquatic Vegetation: Again, because PWCs 
are able to enter shallow water, they have the ability to 
uproot aquatic plants and disturb kelp beds.
    (3) Increased Erosion: PWC users typically spend longer 
periods of time in an area than traditional boats and can 
generate significant wave action. Increased and continuous wave 
action contributes to the shoreline erosion.
    The Subcommittee is preparing legislation to encourage 
states to address the impacts of personal watercraft on the 
marine environment through the State Coastal Zone Management 
Plans.
    At this point, I would ask Mr. Faleomavaega if he has any 
comments he would like to make.
    [The prepared statement of Mr. Saxton follows:]
  Statement of Hon. Jim Saxton, a Representative in Congress from the 
                          State of New Jersey
    Enacted by Congress in 1972, CZMA provides grants to states that 
voluntarily develop and implement federally-approvcd coastal zone 
management plans. It also allows states with approved plans the right 
to review Federal actions to ensure they are consistent with those 
plans, and it authorizes the National Estuarine Research Reserve 
System.
    I am a sailor, and protection of the fragile coastal ecosystem has 
been a priority of mine. The Barnegat Bay watershed includes portions 
of the Edwin B. Forsythe National Wildlife Refuge, which provides 
nesting habitat for migratory birds along the Atlantic Flyway. Threats 
to these creatures necessarily should be addressed within the context 
of CZMA. One such threat is the use of personal watercraft, also known 
as jet-skis or PWCs, in shallow water.
    The environmental impacts of PWCs are often cited as the following:

        (1) Wildlife Disturbance: PWCs shallow draft and high 
        maneuverability are not present in larger boats, and allow PWCs 
        to enter sensitive areas not accessible to larger motorized 
        boats. Once there, they disturb nesting birds and wildlife. 
        Some studies indicate that when startled by PWCs, nesting birds 
        have trampled their eggs, seals have abandoned their pups, and 
        other marine mammals have avoided certain areas.
        (2)Destruction of Aquatic Vegetation: Again, because PWCs are 
        able to enter shallow water, they have the ability to uproot 
        aquatic plants and disturb kelp beds.
        (3) Increased Erosion: PWC users typically spend longer periods 
        of time in an area than traditional boats and can generate 
        significant wave action. Increased and continuous wave action 
        contributes to shoreline erosion.
    The Subcommittee is preparing legislation to encourage states to 
address the impacts of personal watercraft on the marine environment 
through state coastal zone management plans.

STATEMENT OF HON. ENI FALEOMAVAEGA, A DELEGATE IN CONGRESS FROM 
                      THE STATE OF HAWAII

    Mr. Faleomavaega.  Thank you, Mr. Chairman.
    I do want to commend you and thank you for calling this 
hearing concerning this very important issue. Mr. Chairman, the 
Coastal Zone Management Act, which was enacted in 1972, this 
legislation has resulted in the State-Federal partnerships that 
promote smart development and conservation for our Nation's 
coastal areas.
    Proactive planning and on the ground projects remain 
critical as stresses on the coast continue to increase. Our 
coastlines are the most developed areas in the Nation. These 
areas cover only 17 percent of the land, but contain more than 
53 percent of our Nation's population.
    Fourteen of our 20 largest cities are along the coast. 
Since they also support a significant portion of our Nation's 
economy, including recreational fishing, shipping, oil and gas 
industries, we cannot afford to ignore threats to the health of 
our coasts.
    Only by addressing problems such as pollution, decline in 
water quality, erosion, sea level rise, and loss of habitat for 
marine life can we derive maximum benefits from these areas.
    Popularity of the Coastal Zone Management Act is evidenced 
by the fact that 33 of 34 eligible States have developed 
Coastal Zone Management Plans. The strengths of the Act include 
flexibility that allow states to address their unique needs and 
concerns, combine focus and plan development, and conservation, 
and public access, and consistency provisions giving states a 
voice and reviewing Federal activities that conflict with state 
plans.
    One criticism of the Act has been that monitoring and 
enforcement are too weak. Provisions in the bill that will be 
introduced by you, Mr. Chairman, requiring that the Secretary 
of Commerce recommend measurable outcome indicators or other 
mechanisms by which the states could evaluate the effectiveness 
of their programs may address this concern.
    I look forward to hearing from our witnesses this morning 
and commenting on the fact that you are a sea captain, Mr. 
Chairman. I would like to invite you to join me on a journey or 
a voyage on a double-haul Polynesian voyaging canoe to sail 
from Tahiti to Hawaii. That will really give you some coastal 
zone management appreciation.
    Mr. Saxton.  I think I look forward to that.
    Mr. Faleomavaega.  Thank you, Mr. Chairman.
    [The prepared statement of Mr. Faleomavaega follows:]

  Statement of Hon. Eni Faleomavaega, a Delegate in Congress from the 
                      Territory of American Samoa

    Mr. Chairman, I would like to thank you for holding a 
hearing on the Coastal Zone Management Act. Enacted in 1972, 
this legislation has resulted in state-Federal partnerships 
that promote smart development and conservation in our nation's 
coastal areas.
    Pro-active planning and on-the-ground projects remain 
critical as stresses on the coast continue to increase. Our 
coastlines are the most developed areas in the nation. These 
areas cover only 17 percent of the land but contain more than 
53 percent of the population. Fourteen of our 20 largest cities 
are along the coast. Since they also support a significant 
portion of our nation's economy--including recreational, 
fishing, shipping, and oil and gas industries--we cannot afford 
to ignore threats to the health of our coasts. Only by 
addressing problems such as pollution, declining water quality, 
erosion, sea level rise, and loss of habitat for marine life, 
can we derive maximum benefits from these areas.
    The popularity of the Coastal Zone Management Act is 
evidenced by the fact that 33 of 34 eligible states have 
developed Coastal Zone Management Plans. The strengths of the 
Act include:

        <bullet> flexibility that allows states to address their unique 
        needs and concerns;
        <bullet> combined focus on planned development, conservation, 
        and public access; and
        <bullet> consistency provisions giving states a voice in 
        reviewing Federal activities that conflict with state plans.
    One criticism of the Act has been that monitoring and enforcement 
are weak. Provisions in the bill that will be introduced by Mr. Saxton, 
requiring that the Secretary of Commerce recommend measurable outcome 
indicators or other mechanisms by which the states could evaluate the 
effectiveness of their programs, may address this concern.
    I look forward to hearing from the witnesses about this and other 
ways to improve this important legislation.

    Mr. Saxton.  I would now like to introduce our first 
witness, our colleague from--actually, I did not realize until 
I saw you sitting there, but the gentleman lives on Sanibel 
Island in Florida and in the summer on Fisher's Island off the 
coast of Rhode Island. Is that correct?
    Mr. Goss.  Correct.
    Mr. Saxton.  In any event, welcome and we look forward to 
hearing your testimony. You may proceed.
    Mr. Faleomavaega.  Will the Chairman yield?
    Mr. Saxton.  Yes.
    Mr. Faleomavaega.  I would like to offer my personal 
welcome to the gentleman from Florida, who I certainly have had 
the privilege of knowing personally for the past 10 years.
    I commend him for the tremendous contributions that he has 
made not only to this Institution, but to our Country. I 
welcome him.
    Mr. Goss.  Thank you very much.
    Mr. Saxton.  I ask unanimous consent that all Subcommittee 
members be permitted to include their opening statement in the 
record at this point. Mr. Goss.

STATEMENT OF HON. PORTER J. GOSS, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF FLORIDA

    Mr. Goss.  Thank you, Mr. Chairman. Mr. Ranking Member, I 
appreciate those very kind words of welcome. I have many happy 
memories of working in this room with you all back when this 
Subcommittee had a different name.
    It is interesting to me and pleasant to be back; especially 
talking about coastal zone management. I do have a statement 
officially prepared for the record, which I would ask be 
accepted in the record.
    I would like to just emphasize a couple of major points, if 
I could. Thank you very much. I also started for the office 
this morning at an early hour, but I got here by 8 a.m., which 
is a good thing, because I only live 4 minutes away.
    I would suggest that there are advantages to living on the 
Hill, Mr. Gilchrest, but nothing that would qualify with living 
where you do in Maryland on the coast. I miss the coast very 
much. I care very much about it and we in Florida do.
    We think that the coastal zone management legislation has 
been extremely helpful. I think the proof is clearly in the 
pudding; 34 out of 35 eligible States participate. I understand 
something like 99 percent of our Gulf Lakes and ocean shore 
lines have a degree of protection from this law.
    We have many good managers of our coastal activities all 
over the Country. One of them from Florida who I am very proud 
of, and I understand is here today, Gary Lytton, from Rookery 
Bay in my District, who has been recognized for the works he 
has done. We have many such people. We are proud of all of 
them.
    The real purpose for me testifying today is to talk about a 
consistency proposal which I hope you would consider, the 
Subcommittee would consider, is legislation which would 
strengthen the CZMA.
    It is simply this. In order for the states to do a better 
job of coming up with their conclusions on proposals, 
particularly outer continental shelf oil and gas proposals, it 
would be useful if they had the advantage of the results of the 
environmental impact studies that are required for those types 
of activities.
    As it works now, if a state has a consistency review to 
deal with an OCS proposal, the process starts simultaneously. 
The Federal Government has 2 years to do its work and the state 
only 6 months.
    Obviously, in all likelihood the state is therefore not 
going to have a final EIS to work from. What we are proposing 
is that the starting for the state's 6 month clock to begin 
tolling is at that time when the Federal EIS is completed.
    That would give the state managers, the state authorities, 
and elected officials the opportunity to review the matter and 
have the advantage of the results of the EIS. I think this 
would strengthen this part of the Act.
    It would make a great deal of difference in the State of 
Florida. We have cases actually active now that show us this 
would be a very good improvement. So, I ask the Subcommittee to 
consider this favorably and of course we will stand by to 
present all of the details on that.
    On the subject of the personal watercraft, I join the 
Chairman in his crusade. We have had, regrettably, a number of 
deaths in Florida, which of course has a very high recreational 
boating use and a lot of boating activity in the littoral 
zones.
    This is a subject that has been attempted to be regulated 
in different ways by different communities in different states 
with varying degrees of success. I do think it has certainly 
risen to the level of coming to the attention under the Federal 
Coastal Zone Management Act.
    I wish you well in your efforts to find a better way to 
deal with this problem. Truthfully, it is not just an 
environmental concern, although I agree with everything the 
Chairman said and associate myself very much with his remarks 
on that because we have seen the kinds of damage he speaks of 
in what I will call estuarine areas in Florida.
    Also, there is a public safety piece of this, which I am 
aware of, having been a mayor of a community where we have run 
into these problems. I also want to very much emphasize, again, 
the wholehearted support of the people of Florida for what the 
Coastal Zone Management Act has done and has provided.
    Truthfully, our wealth in Florida is our beaches. It drives 
the economy. Shore line protection is a very important point 
for us. So, to have this kind of hearing going on, the 
reauthorization of this bill, the strengthening and improving 
of it, is very good news for the people of Florida.
    I want to thank the Chairman and the Ranking Member very 
much for undertaking this.
    [The prepared statement of Mr. Goss follows:]

 Statement of Hon. Porter Goss, a Representative in Congress from the 
                            State of Florida

    Mr. Chairman, I am delighted to be here this morning to 
discuss the Coastal Zone Management Act. As my colleagues know, 
I have been a longtime vocal supporter of the Coastal Zone 
Management Act--it is a rare example of a Federal environmental 
program that is both voluntary and effective.
    CZMA is a cooperative effort that recognizes states as full 
partners--sharing the costs and responsibilities for setting 
standards geared toward protecting local coastal environments. 
It provides the flexibility for Michigan to do what's best for 
the Great Lakes, for instance, while allowing Florida to 
establish a program that works for the Gulf and Atlantic 
Coasts. The success of CZMA can be measured by the fact that 
since its creation in 1972, 34 of 35 states eligible for the 
program have become involved. Together, these programs protect 
more than 99 percent of the nation's 95,000 miles of oceanic 
and Great Lakes coastline.
    Florida has been an active participant and beneficiary of 
this program. Indeed, I am pleased that one of our coastal 
managers is here this morning to share his thoughts with the 
Committee. Gary Lytton manages the Rookery Bay Research Reserve 
in Naples, Florida. The reserve has proven itself a tremendous 
asset and its work has value far beyond Southwest Florida.
    Mr. Chairman, this morning I would like to discuss the 
consistency provisions of CZMA, which are of critical 
importance to my home state of Florida, particularly with 
regard to the issue of oil and gas exploration. CZMA provides 
states the opportunity to review Federal actions and permits 
for activities off state coasts, and in the case of OCS 
drilling permits, gives the state the authority to make the 
determination whether or not these activities are consistent 
with the state's Coastal Zone Management Plan. Florida has 
spent a great deal of time and effort developing a plan that 
protects both our unique environment and the state's largest 
industry--tourism. CZMA has proven itself to be one of the 
state's most effective tools in dealing with this issue.
    Having said that, I believe we can make some improvements 
in the consistency provisions. Currently, a state's consistency 
review of development and production plans under CZMA must be 
completed within a set timeline and states are not permitted to 
delay beyond those deadlines. That timeline runs out in six 
months, well before the Environmental Impact Statements 
required for oil and gas development under the OCS Lands Act 
are completed, a process that tends to take approximately two 
years. In other words, the state is forced to determine whether 
development of a proposed site is consistent with the State's 
Coastal Zone Management Plan before having an opportunity to 
review the environmental impact statements that are developed 
to analyze primary, secondary and cumulative effects of the 
proposed site. It seems to me that the detailed information 
contained in the environmental impact statements is precisely 
the kind of information a state must have in order to make an 
accurate and responsible determination of consistency.
    The State of Florida is currently experiencing this problem 
firsthand, given the proposed development of a natural gas site 
off the coast of Pensacola, Florida. As a result of the state's 
experiences, first Governor Lawton Chiles and now Governor Jeb 
Bush have supported revisions to CZMA that would allow the 
states to review the EIS information prior to making a 
consistency determination.
    After extensive consultations, I have introduced 
legislation that will make this common-sense change. H.R. 720 
is a very straightforward piece of legislation--indeed, it is 
barely a page and a half long. In simple terms, the bill will 
prevent the timeline on a consistency determination from 
beginning until after the state has received the EIS 
information regarding the proposed site. Once the state has 
received this information, it will be under the time 
constraints already outlined in CZMA.
    I believe this legislation will ensure that states making 
consistency determinations for proposed oil and gas activity 
will have all necessary information to make an informed 
decision about whether the proposed activity is consistent with 
the state's Coastal Zone Management plan. This change is 
consistent with the intent of CZMA and I am hopeful the 
Committee will look favorably on it.
    Once again, Mr. Chairman, I am grateful for the opportunity 
to discuss the Coastal Zone Management Act, a wonderfully 
successful piece of legislation, and offer my thoughts on ways 
to strengthen it. Thank you.

    Mr. Saxton.  Mr. Goss, thank you very much for your very 
fine articulate testimony. We appreciate your being with us 
this morning. Mr. Faleomavaega, do you have any questions for 
Mr. Goss?
    Mr. Faleomavaega.  I want to thank the gentleman from 
Florida, too, for his comments. More specifically, if we do 
have some problems with the current law, as you stated earlier, 
that the states are not given sufficient time to review EIS's 
which have been put forth.
    I think that is something that definitely we need to 
examine a little closer. I thank the gentleman for his 
observation.
    Thank you, Mr. Chairman.
    Mr. Saxton.  Mr. Gilchrest.

   STATEMENT OF HON. WAYNE T. GILCHREST, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MARYLAND

    Mr. Gilchrest.  Good morning, Porter. Maybe you and I can 
exchange visits sometime. I can commute in with you and you can 
commute in with me.
    Mr. Goss.  I would love to live where you live, Mr. 
Gilchrest, but I do not want your commute.
    Mr. Gilchrest.  We are still waiting for you to come out 
there and ride that old horse.
    Mr. Goss.  I will.
    Mr. Gilchrest.  Thank you.
    Mr. Saxton.  He actually lives on Turner's Creek, which is 
off the Sassafras River in a very lovely anchorage, I might 
add.
    Mr. Gilchrest.  I have heard.
    Mr. Goss.  Jim is coming over with his sailboat sometime 
late spring. All of our colleagues who are now here this 
morning could jump on the sailboat in Havre D'Grace and come 
down to Turner's Creek and spend a day down there.
    Mr. Gilchrest.  It sounds like a good place to examine this 
whole issue. We try to protect those areas. You know, very 
quickly though, Porter, we appreciate your testimony.
    This may be already happening, but an exchange of 
information between different states that are now beginning the 
process of implementing their management regimes or have 
already implemented their coastal zone management regimes, 
maybe it would be good for us to get together and exchange 
information with states that are in the process or who have 
completed that to see what the successes are and what the 
difficulties are in doing that.
    Mr. Goss.  I would certainly endorse that. I can tell you 
that the State of Florida borrowed a great deal of its Coastal 
Zone Management Planning Process in the 1970s and the 1980s 
from the State of Oregon.
    We had a very fine manager. He happened to be able to be 
hired away from Oregon after he had done their plan. He came to 
Florida. We listened very closely to what he said and did a lot 
of the work in Florida, which has subsequently paid off very 
well.
    A part of the beauty of this Act is it provides for that 
kind of exchange, if somebody will take the initiative. It also 
provides the flexibility to deal with the differences between 
the Great Lakes, New Jersey, Florida, Maryland, and wherever 
else. I think that is an excellent suggestion.
    Mr. Gilchrest.  Thank you, Porter. Thank you, Mr. Chairman.
    Mr. Saxton.  Thank you. Mr. Vento.

STATEMENT OF HON. BRUCE F. VENTO, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF MINNESOTA

    Mr. Vento.  Thank you, Mr. Chairman.
    Last night, I read the staff material on this. I am sorry, 
Porter, that I was not able to be here to hear your statement.
    I understand that what you are proposing is that, in the 
statute you formally require the EIS to be transmitted to the 
state prior to the consideration of its plan through the 
process of developing it.
    Mr. Goss.  That is correct.
    Mr. Vento.  The issue here is that they are not getting, in 
other words, NOAA is required to share all of the information. 
They are not sharing the EIS. They are developing that 
simultaneously. Is that the concern?
    Mr. Goss.  The problem is that they have 2 years to do the 
EIS and the states only have 6 months to do the consistency 
review. So, obviously unless the Federal Government happens to 
get the whole EIS done in 6 months, the states do not have the 
advantage of it.
    Mr. Vento.  The problem, of course, is this would obviously 
cause a delay in terms of the plan coming forth from the state.
    Mr. Goss.  It could or it could not. It would depend on how 
much of the time the Federal Government took. If the Federal 
Government routinely takes the 2 years, then yes, it could add 
as much as 6 months onto the end of it. My feeling is once the 
state has the material, the EIS, the state is not going to need 
the full 6 months. So, I am not sure that that is true.
    Mr. Vento.  You raise an important point about 
coordination. I do not know enough about it. I think that if it 
were to mean that the plan would be substantially late. I know 
there has been a flash point about some of these plans because 
they obviously mandate a sort of conduct in terms of the 
development, utilization, and protection of these resources.
    I think it makes sense to try and coordinate this so that 
the information does not have to be developed independently. In 
many instances, as you know of course, we delegate the states 
to do the EIS or do much of this planning.
    So, there may be that there is some agreement, a memorandum 
of understanding, that could be developed. I do not know 
enough, as I said, about this law. This is kind of a new topic 
to me.
    I would be interested in learning more about that. There is 
no real reason that they should not have as much information as 
available. The EIS certainly is the process for developing 
that.
    Mr. Goss.  The purpose, Mr. Vento, is obviously to get a 
good result and not to cause delay. I would point out that the 
Minerals Management Service has now issued proposed 
regulations, or at least draft regulations, that would 
basically allow a state to review the draft EIS before making 
its consistency determination which is what I am asking.
    So, the question is then this need has already been 
recognized and I am told that this happened in just this last 
week and it may have something to do with the fact that this 
proposal is here.
    We believe the proposal is sound. I do not think it will 
cause undue delay. I think it will get better results. 
Certainly from the Florida perspective it will. The Minerals 
Management Service has drafted some regulations to give this 
thing a try.
    I still think we ought to put it into law to make sure that 
the states have the opportunity to have the EIS and have their 
time start tolling once the EIS is completed. As I say, I do 
not think it is going to add a significant percentage of time 
to the process.
    Mr. Vento.  Thank you. Thank you, Mr. Chairman.
    Mr. Saxton.  Porter, thank you for being with us this 
morning.
    Mr. Goss.  Thank you, sir.
    Mr. Saxton.  We will excuse you at this point.
    We will now move to hear from the Assistant Secretary of 
Commerce for Oceans and Atmosphere at the Department of 
Commerce, Mr. Terry Garcia. We are glad you were able to be 
here this morning.

 STATEMENT OF TERRY D. GARCIA, ASSISTANT SECRETARY OF COMMERCE 
       FOR OCEANS AND ATMOSPHERE, DEPARTMENT OF COMMERCE

    Mr. Garcia.  Thank you, Mr. Chairman.
    It is always a pleasure. Let me start by apologizing to the 
Subcommittee for the fact that my written statement was late. 
One of the frustrations that I continue to have is with the 
clearance process.
    I will commit to you and to the other members that we will 
do our best to make sure that this does not happen in the 
future. Re-invention has its limits I am afraid. We will 
continue to work to make the system more efficient.
    I would ask that the written statement be placed in the 
record. I have a few oral comments that I would like to make to 
focus on several issues of primary importance that we would 
like to draw to the attention of the Subcommittee.
    First of all, I want to again thank you for the opportunity 
to appear before you to present testimony regarding the Coastal 
Zone Management Act and to express the Administration's 
steadfast and continuing support for programs authorized under 
the Act; the National Coastal Zone Management Program and the 
National Estuarine Research Reserve System.
    The CZMA is one of the Nation's landmark natural resource 
management laws and stands today as our most successful 
voluntary tool, allowing comprehensive and cooperative 
management of our Country's coastline.
    I commend you, Mr. Chairman, and this Subcommittee for 
holding this hearing. I urge the Subcommittee to move 
expeditiously in approving legislation to reauthorize the CZMA.
    The importance of our Nation's coastal regions to the 
economy of the United States and its value to the environmental 
health of the Country should be a reminder to all of us as to 
the importance of CZMA.
    The 425 coastal counties generate $1.3 trillion of the GNP 
and coastal industries account for over 1/3 of the national 
employment or 28.3 million jobs. In 1995, just under a billion 
tons of cargo worth $620 billion moved through coastal ports 
and harbors.
    Moreover, coastal estuaries are among the most biologically 
productive regions in the Nation, as well as providing 
recreational opportunities for more than 180 million Americans 
each year.
    Quite frankly, however, Mr. Chairman, our Country's coastal 
resources continue to be under siege. The need for the CZMA and 
its programs is greater now than ever.
    The Administration's support for the CZMA was recently 
reinforced when the President announced his Lands Legacy 
Initiative. Under this initiative, which is a part of the 
President's fiscal year 2000 budget request, NOAA would receive 
an additional $105 million over current funding levels.
    A significant portion of these funds is targeted for 
coastal zone management and the National Estuarine Research 
Reserve Programs to protect America's valuable ocean and 
coastal resources, and to strengthen our partnerships with 
state and local communities.
    These funds will address the following three critical 
coastal concerns. It is these concerns that I would like to 
focus on today.
    First, smart growth. Coastal communities, the most densely 
populated and fastest growing areas of the Nation are 
experiencing increased pressure as 3,600 people each day move 
to the coast.
    Forty percent of new commercial development and 46 percent 
of new residential development is occurring in coastal 
communities. This population growth and resulting new 
development encroaches upon and diminishes natural and 
agricultural areas at the urban fringe and fuels sprawl.
    Sprawl has impacted coastal communities by degrading water 
quality and marine resources, fragmenting coastal habitat, and 
reducing the quality of life for coastal residents. Many 
coastal communities do not have the capacity to confront 
successfully this coastal growth and its impacts on marine and 
coastal resources. Twenty-eight million dollars of the new 
funding that is proposed through the Lands Legacy Initiative 
for the Coastal Zone Management Program is to develop smart 
growth strategies and land use planning innovations, revitalize 
waterfronts, and improve public access to the coast.
    With this proposed funding, coastal communities will be 
offered a comprehensive package of financial and technical 
assistance for planning through implementation. In addition, to 
ensure protection of our pristine estuary resources from the 
ever-growing pressures of urban sprawl, the Lands Legacy 
Initiative includes an increase of $14.7 million for the NERRS 
to purchase buffers, boundaries, and easements from willing 
sellers.
    The second issue is protection of coastal habitat. Coastal 
habitats including mangroves, wetlands, estuaries, sea grass 
beds, and coral reefs provide critical spawning and nursery 
areas for living marine resources.
    Wetlands serve as filters for land-based contaminants, and 
together with coral reefs, buffer against storm surges and help 
prevent coastal erosion.
    In the Southeast, over 90 percent of the commercial catch 
and 50 percent of the recreational catch are fish and shell 
fish dependent upon wetlands. Human activities have changed, 
degraded or destroyed coastal habitats threatening many species 
of economic and recreational importance. Of significant 
importance is the protection of coral reefs where approximately 
50 percent of all federally managed marine fisheries spend a 
part of their life cycle.
    However, coral reefs are being seriously degraded by 
pollution and sedimentation, development and over-use, and 
increased ocean temperatures and salinity. It is estimated that 
10 percent of the earth's coral reefs have already been 
seriously degraded and a much greater percentage are 
threatened.
    Without aggressive conservation and protection measures, 
this decline is likely to escalate and may not be reversed. I 
would also note that next week, the Coral Reef Task Force is 
meeting in Hawaii to take up this very critical issue.
    Under the Lands Legacy Initiative, more emphasis and action 
is given to estuaries and habitat protection, including funding 
for research monitoring, assessment, and effective resource 
community-based management measures to restore, protect, and 
conserve coastal habitat.
    Seed money would be provided to catalyze cooperative 
restoration projects and to leverage additional funding to 
produce significant on the ground restoration.
    The final point is controlling polluted run-off. 
Development pressures on the coasts can lead to problems 
associated with excess polluted run-off. These problems include 
cumulative sources, such as run-off from urban streets and 
parking areas, agriculture, forest harvesting activities, 
marinas, and recreational boating, and impacts from the 
construction and maintenance of dams, channels, and other 
alterations of natural systems.
    Polluted run-off is a prime suspect in contributing to 
shell fish harvesting restrictions and conditions. This 
Subcommittee is well aware of harmful algal blooms and 
Pfiesteria.
    Polluted coastal waters can result in closure of beaches to 
swimming. In 1995, for example, U.S. ocean, bay, and Great 
Lakes beaches were closed or advisories were issued against 
swimming on more than 3,500 occasions.
    Under the President's Clean Water Action Plan, $12 million 
in funding, an increase of $4 million over fiscal year 2000, is 
requested under the Coastal Zone Management Act to fully 
develop and implement on the ground, state-polluted run-off 
control measures, and leverage other state and local resources 
working to control the flow of polluted run off into coastal 
waters and its impact on coastal habitats and human health.
    Mr. Chairman, there is no better testament to the success 
of the Federal, State, and local partnership forged by the 
CZMA, than the fact that 32 of 35 eligible coastal States, 
Commonwealths, and Territories have received Federal approval 
of their Coastal Zone Management Plans and that two more 
states, Minnesota and Indiana, are seeking to join the national 
program in the months ahead.
    Strong partnership developed with the States through the 
CZMA is also seen in the growth and importance of the National 
Estuarine Research Reserve System. There are now 23 federally-
designated reserves. Most recently, New Jersey and Alaska have 
joined the system with new reserves.
    In conclusion, Mr. Chairman, as it was written within the 
CZMA more than 25 years ago, it is and should continue to be 
the national policy to preserve, protect, develop, and, where 
possible, to restore or enhance the resources of the Nation's 
coastal zones for this and succeeding generations.
    I urge your active support for the reauthorization of CZMA. 
On behalf of the Administration, thank you again for this 
opportunity. I look forward to your questions and comments and 
to working with the Subcommittee as we move forward to develop 
a reauthorization.
    Thank you.
    [The prepared statement of Mr. Garcia may be found at the 
end of the hearing.]
    Mr. Saxton.  Mr. Secretary, thank you very much for a very 
good testimony. Let me just ask, with regard to CZMA, do you 
see any weaknesses that we ought to be addressing that we have 
not addressed in our reauthorization?
    Mr. Garcia.  Let me first, again, say that we strongly 
believe that CZMA has been a very successful program. We have, 
however, over the years learned a number of things.
    There are several areas where we could improve CZMA with 
regard to habitat protection, controlling polluted run-off, 
ensuring that the National Estuarine Research Reserve System, 
is more strongly linked to the management programs of the 
states.
    The Administration is preparing legislation for 
reauthorizing CZMA. We would like to work with the Subcommittee 
and its members in developing that proposal so that we can, 
together, strengthen this vitally important Act.
    Mr. Saxton.  Thank you very much.
    Would you care to comment on the personal watercraft issue?
    Mr. Garcia.  I will comment on it, Mr. Chairman.
    It is obviously a difficult issue. It has generated a lot 
of interest and controversy around the country. This is an 
issue that ultimately is going to have to be dealt with by the 
states.
    We would be happy to work with you and work through this 
issue. I do not have any other points that I would make at this 
time. But I will concede to you that it is an issue of great 
importance.
    Mr. Saxton.  Thank you very much. Mr. Faleomavaega.
    Mr. Faleomavaega.  Thank you, Mr. Chairman.
    I do want to thank Secretary Garcia for a very 
comprehensive statement. This President's Land Legacy 
Initiative, Mr. Secretary, there is a very broad brush that he 
has painted on this thing.
    Have I gathered that only $105 million goes to NOAA out of 
this billion dollar proposed package? Are there some other 
grant programs that are added to it or am I misreading your 
statement here?
    Mr. Garcia.  You are correct that out of the billion 
dollars that are proposed for the Lands Legacy that $105 
million would go to NOAA. There are, of course, other programs. 
These monies would augment and complement existing NOAA and 
Administration efforts to deal with some of the critical 
coastal issues.
    We think it is a substantial investment in these resources. 
As I had said in my testimony, the importance of these 
resources to the economy and to human health can simply not be 
over-stated. The Lands Legacy is designed to deploy resources 
in communities for on the ground projects. I would just urge 
the Subcommittee and the members to very seriously review our 
request.
    I would urge your support for it. It is designed to do what 
we all know needs to be done, and that is to get resources to 
states and communities to work with us so that we can develop 
the partnerships that are going to be needed to address such 
problems as coral reef degradation, habitat degradation, 
polluted run-off, the problems of Pfiesteria that this 
Subcommittee dealt with several times last year, and harmful 
algal blooms.
    So, I would commend it to you. We would be happy to come 
back to the Subcommittee to present a detailed analysis for you 
of the request and of the specific programs that would be 
funded by that particular request.
    Mr. Faleomavaega.  Is the Administration planning to offer 
any proposals in structural changes in the current Coastal Zone 
Management Act or are you just going to wait until the Congress 
comes up with its own proposed changes?
    Mr. Garcia.  No, sir. We are preparing a proposed 
reauthorization bill.
    Mr. Faleomavaega.  Do you also handle the weather 
observation stations that we have nationally.
    Mr. Garcia.  We do.
    Mr. Faleomavaega.  Correct me if I am wrong. Is the 
Administration proposing any cutbacks on the capabilities in 
providing weather station resources?
    Mr. Garcia.  No, Congressman. We have been engaged over the 
last several years in a process of modernizing the Weather 
Service which has involved the closure of some offices.
    That is a consolidation of offices. It is a recognition 
that we have deployed new technologies that will allow us to 
better predict and forecast weather events.
    Mr. Faleomavaega.  Thank you.
    Thank you, Mr. Chairman.
    Mr. Saxton.  The gentleman from Maryland.
    Mr. Gilchrest.  Thank you, Mr. Chairman.
    I am not sure what the status of the legislation is that 
this Subcommittee is developing on the recommendations to 
develop a structure to collect hard data on the success of the 
CZMA Program.
    Is there a draft bill that we are going to hold hearings 
on, Mr. Chairman?
    Mr. Saxton.  The bill is currently being drafted. We will 
be holding hearings, yes.
    Mr. Gilchrest.  Do you have any specific recommendations 
today, Mr. Garcia, to give to us as to how we would want to 
develop a structure so that sufficient data, hard data, could 
be collected and then be evaluated on the program? You may have 
said it. I apologize for being on the phone.
    Mr. Garcia.  I do address it in the written statement. We 
have taken several steps over the last year or so to improve 
the collection of data so that we can evaluate the 
effectiveness of the CZMA Program and the various programs 
within the states to ensure that the purpose of the Act is 
being fulfilled.
    I think that we have made substantial progress. We have 
instituted within the agency an evaluation of the programs. We 
have prepared an effectiveness report. Our biennial report on 
the Coastal Zone Management Program I believe is due to be 
delivered within days, perhaps today, to the Subcommittee which 
contains information on the effectiveness of the program.
    Mr. Gilchrest.  Do you feel that legislation is needed in 
order to collect sufficient data?
    Mr. Garcia.  No.
    Mr. Gilchrest.  Oh, you do not?
    Mr. Garcia.  We feel the legislation is needed to make some 
improvements in the Act. I want to be careful not to say that 
we feel there are any glaring deficiencies in the Act.
    Rather, there are some areas that could be enhanced and 
improved. When we have finished--the Administration's 
legislation is now in the clearance process. We are receiving 
comments from other agencies.
    As soon as OMB has completed its process, we would like to 
sit down with the staff of the Subcommittee and the staff of 
the individual members to talk about these issues to see if we 
cannot jointly come up with recommendations on how to improve 
the Act. Effectiveness may be one of those. There may be some 
other things that we have not thought of.
    Mr. Gilchrest.  Are one of the things that you would 
recommend in improving the Act that you want to work with us on 
is collecting hard data about protecting more acreage and 
improving the quality of small estuaries, or bay grasses, and a 
whole range of things?
    Mr. Garcia.  Yes.
    Mr. Gilchrest.  Apparently, there is not much more than 
anecdotal information.
    Mr. Garcia.  I would not say that. I would agree with you 
that collecting data is something that we obviously as a 
science agency have a deep and abiding interest in.
    Mr. Gilchrest.  Who do you collect it from; just from the 
states? So, you collect that data from the state authorities?
    Mr. Garcia.  Correct; from the NERRS system, from our own 
offices, and combine that information to evaluate the 
effectiveness of these programs.
    Mr. Gilchrest.  Is there any other area of the Act that you 
would recommend needs improvement through legislation?
    Mr. Garcia.  There are several. Again, these are not 
glaring deficiencies, but rather fine tuning of the Act. 
Ensuring that the NERRS Program, for example, links to the 
management programs are strengthened.
    The NERRS Program provides us with valuable information on 
some very pristine resources around the country. We need that 
information and we need to link it to these management programs 
that are now in place.
    We also need to make sure that the authorities under the 
Act for controlling run-off pollution are retained and, if 
necessary, strengthened on habitat concerns.
    Mr. Gilchrest.  When some of this $100 million filters down 
into this particular Act, there may be a way to do that now. Is 
there a way or could there or should there be a way in this Act 
similar to, let us say, the other part of the Lands Legacy 
Program that potential, as far as the purchase of easements or 
the purchase of land--is it now included in the Act?
    Mr. Garcia.  Yes, it is. For the NERRS Program, there is 
$14.7 million that we are proposing to add to the program for 
the purpose of allowing states to purchase easements, buffers 
from willing sellers.
    Mr. Gilchrest.  How much is in the program now?
    Mr. Garcia.  It is $4.3 million.
    Mr. Gilchrest.  Four million dollars. Is that just for 
Maryland?
    Mr. Garcia.  Among others.
    Mr. Gilchrest.  Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Saxton.  I thank the gentleman. Mr. Vento.
    Mr. Vento.  Thank you, Mr. Chairman.
    There are a couple of questions here. I have one that is 
sort of technical. I understand that Dr. Hershman is presenting 
a report today on the effectiveness. NOAA commissioned a 
conference on the effectiveness program.
    Do you have any comments on the outcome data? I mean, there 
is a suggestion that is based primarily on assessments of 
policies, process, and tools rather than actual outcome data. I 
do not want you to go into a dissertation on this, but do you 
have any comment on that particular observation?
    Mr. Garcia.  I do not know that, that is quite accurate. I 
will let the next witness speak to that. Our conclusion from 
the report is that this program is generally very effective in 
accomplishing the goals of the CZMA.
    Again, while there are some changes that should be made in 
the program, overall it has done its job. It has established or 
helped to establish and strengthen the necessary partnerships 
that we need to make with states and communities to deal with 
these coastal resources. So, we are generally quite pleased 
with the direction of the program and the results that this 
program has produced.
    Mr. Vento.  Mr. Secretary, there are a number of different 
requirements or laws obviously with regard to the Coastal Zone 
Management Act and one is voluntary participation.
    In enhancing that plan, of course, we started out with, and 
you know pretty soon Minnesota is going to be involved with 
this.
    Mr. Garcia.  Right.
    Mr. Vento.  I am from Minnesota, as you know. That will 
affect our Great Lake Superior. In any case, by additional 
requirements to it, for instance, there is a suggestion that 
the plan ought to include non-point pollution type of issues.
    I think one of the suggestions that is being made here is 
that it ought to include personal watercraft type of 
restrictions, or limits, or at least guidance that would come 
back.
    Obviously, you have been asked about that. Some states no 
doubt are ready and have exercised some responsibility along 
both these lines. Do you have any comment about the non-point 
pollution requirement?
    Mr. Garcia.  Well, yes. On non-point I would just say that 
it is already in the Act. There is authority for the Non-Point 
Pollution Program. We have developed with States, and Congress 
has funded, Non-Point Pollution Programs around the country.
    My point was simply that we need to retain that authority. 
We need to focus this Act on dealing with the habitat issues 
associated with non-point pollution, the degradation of 
habitat.
    We have seen the consequences over the years of non-point 
pollution or of run-off pollution into bays and estuaries, into 
our coastal waters. The effects have frankly been staggering to 
the economy.
    Unfortunately, we are seeing the problem continue to grow. 
So, it is a problem that must be dealt with. We just happen to 
think that the best way to deal with this is through programs 
such as the CZMA Program which develops partnerships with these 
communities so that each community is allowed to develop a 
program that best suits its needs and its citizens' desires.
    Simply put, it is in the Act now. We would like to see it 
stay in the Act. We think it is critical. We would propose that 
we simply look at the current focus of the Non-Point Program to 
ensure that it is meeting the needs of the coastal states.
    Mr. Vento.  Your concern, I guess reading between the 
lines, is whether or not there has been adequate funding for 
that and whether or not the plans that are coming back actually 
sufficiently address the non-point pollution. Is that correct?
    Mr. Garcia.  That is correct.
    Mr. Vento.  It may, in some cases, not address it or need 
to be readdressed as we learn more about dirty diatoms. Is that 
correct?
    Mr. Garcia.  Among others. We do have a request for $22 
million under the Clean Water Initiative to deal with, among 
others, non-point pollution and harmful algal blooms.
    Mr. Vento.  On the issue of the personal watercraft, which 
apparently is going to be a special topic today, we have been 
through this in the State of Minnesota with all of our lakes.
    The issue here, of course, is that we had a permitting 
process which assessed a $50 fee. We have come to find out that 
our new Governor has four or five of these. So, as you might 
imagine, he is not----
    Mr. Saxton.  They are probably big ones too.
    Mr. Vento.  Well, they have got to be. He uses two at a 
time, Mr. Chairman.
    Mr. Saxton.  One for each foot, I suppose.
    Mr. Vento.  In any case, I think that one of the problems 
that this breaks down on, of course, we know that there is wave 
action. There is turbidity. I read some of the terms in here 
that are caused because they do not have much of a draft, 
obviously, and they can move around pretty quickly; besides 
being a pain in the neck to those of us that are fishermen. 
They have this $50 fee, obviously, with the idea of using those 
dollars to try and provide some sort of enforcement mechanism.
    I suspect that we could ask in the Coastal Zone Management 
Act for the states to address this particular issue. I do not 
know exactly how the Chairman anticipates dealing with this.
    That might be a reasonable way. Do we actually deal with 
other type of watercraft? For instance, if we have anchoring of 
various types of craft near a reef, and in some cases we see 
damage occurring, would it not be reasonable then to look in 
terms of actual damages that occur and ask for states to 
mitigate or to avoid that by virtue of their regulatory process 
and as a part of their plan in terms of coastal zone 
management?
    Is that addressed at all today? I mean, obviously, you 
addressed the issue with regard to those that would be anchored 
in terms of damaging coral reef and so forth.
    Mr. Garcia.  I do not know whether other vessels are 
specifically addressed in CZMA. I think not. I am sure my staff 
will throw something at me if I am wrong. Other statutes do 
address the issue that you are raising.
    Obviously if some activity, whether it is caused by a 
personal watercraft or other vessel is damaging, for example, a 
coral reef, there are other statutes that would govern the 
ability of the Federal Government or of states to seek redress 
in that case.
    Mr. Vento.  So, we are indemnified. You are actually 
involved in suits on occasion where there is coral reef damage 
that occurs as a result of some activity in these areas through 
the states that are involved.
    Mr. Garcia.  Absolutely; both under our Marine Sanctuaries 
Act and under the Oil Pollution Act, and under various other 
statutes. There is authority to seek redress for injuries to 
natural resources, whether it is coral reefs, or critical 
habitat for fisheries, or simply coastal areas that have been 
impacted by some human activity.
    Mr. Vento.  I think the problem here, Mr. Chairman, is it 
is a little tougher to measure some of this.
    Thank you.
    Mr. Garcia.  If I could make one other point.
    Congressman, you had been engaged in a discussion with 
Congressman Goss on this; just the issue of the EISs and the 
clock, when it starts running.
    I believe, and will provide more information to the 
Subcommittee, that this can be dealt with administratively in 
the state plans. A statutory amendment or change would not be 
necessary to address the concern that the Congressman had 
raised. We would be happy to work with the Subcommittee to work 
through that particular issue.
    [The information referred to follows:]
--------------
    Outer Continental Shelf (OCS) Oil and Gas Activities and 
National Environmental Policy Act (NEPA) Documents; Starting 
the Coastal Zone Management Act (CZMA) Federal Consistency 
Review Period (Representative Porter Goss (R. FL) proposal).
    NOAA does not recommend amending the CZMA to require that 
environmental impact statements (EISs) prepared by the Minerals 
Management Service (MMS) for an applicant's proposal to drill 
for oil and gas on the outer continental shelf must be 
completed prior to the start of the CZMA Federal consistency 
review period. A statutory change is not required to address 
this issue. States may individually, pursuant to NOAA 
regulations, amend their federally approved coastal management 
programs to require that a draft EIS (or final EIS) is data and 
information that is necessary to start the state's Federal 
consistency review. This would be a routine program change, 
under 15 C.F.R. part 923, subpart H, that could be developed 
and approved within 4-6 weeks. In fact, a recent rule proposed 
by MMS acknowledges a state's ability to so change its coastal 
management program.
    Moreover, the coordination of NEPA documents and CZMA 
Federal consistency reviews may vary greatly depending on the 
state and the Federal agency(ies) involved. Coastal states have 
informed NOAA that they want flexibility as to how they 
coordinate NEPA and Federal consistency reviews. Thus, some 
states may want to begin a consistency review prior to the 
completion of a draft or final EIS, or make some other 
arrangement to obtain information. Thus, since states want such 
flexibility and it is fairly easy for a state to amend its 
program to include NEPA documents as necessary information 
requirements needed for its consistency review, a statutory 
change is not desired or needed.

    Mr. Vento.  I thought that, Mr. Chairman, as I read further 
under Porter's comments that the issue is I think that they 
feel like they have to come up this very quickly.
    In fact, the staff analysis said it is 90 days. I do not 
know if it is 90 working days. Porter was saying it was 6 
months. So, I do not know how you guys reconcile those two 
numbers.
    In any case, I think the concern is that they quickly have 
to come up with this in a short period of time. Then the 
Minerals Management Administration--I guess I misspoke when I 
said it was NOAA.
    They can string this out for 2 years. So, a lot of issues 
may come up that they did not even have a chance to look at, in 
terms of the consistency.
    Mr. Garcia.  To be frank, I think the issue is that some 
states like the system as it is. Others feel that they need to 
modify the timing.
    My point is only that I believe that we can take care of 
this administratively through modifications of those state 
plans where the state feels that it needs more time rather than 
making a statutory change.
    Mr. Saxton.  Mr. Secretary, thank you very much for being 
with us this morning. We appreciate your input as always. We 
also appreciate your reference to the timing on the receipt of 
your material.
    We appreciate your intent to try to get that to us earlier.
    Mr. Garcia.  We will strive to do better.
    Mr. Saxton.  Thank you.
    Now, we will move on to our next panel. It consist of Ms. 
Jacqueline Savitz, who is the Executive Director of the Coast 
Alliance; Mr. Howard Park, who is a Consultant with the 
Personal Watercraft Industry Association; and Mr. Thomas Tote, 
who with the Jersey Coast Anglers Association, a marine 
conservation group from my State.
    Welcome aboard. Ms. Savitz, you can proceed at your will.

   STATEMENT OF JACQUELINE SAVITZ, EXECUTIVE DIRECTOR, COAST 
                            ALLIANCE

    Ms. Savitz.  Thank you very much, Mr. Chairman.
    Good morning, members of the Subcommittee. My name is 
Jackie Savitz and I am the Executive Director of the Coast 
Alliance, a national environmental coalition that works to 
protect our Nation's priceless coastal resources.
    As you know, Coast Alliance leads a network of over 400 
conservation groups around the coasts, including the Great 
Lakes. We appreciate the opportunity to offer testimony today 
on the Reauthorization of the Coastal Zone Management Act, on 
behalf of the Coast Alliance and about a dozen other coastal 
conservation organizations.
    The Alliance has a long track record with the Coastal Zone 
Management Act. We have consistently supported the 
reauthorizations. We have worked to educate the public about 
the value of the related Coastal Non-Point Source Pollution 
Control Program.
    We have worked with NOAA and the EPA to maintain the 
consistency aspects of the Act and the enforceability aspects 
of the Coastal Non-Point Program. This week we released a 
report entitled ``Pointless Pollution: Preventing Polluted Run-
off and Protecting America's Coasts.''
    I have asked that it be distributed to this Subcommittee. 
This report was released by 40 organizations and 15 coastal 
states this week. It focuses on the number one threat to the 
coasts, polluted run-off, and on the need to continue to move 
forward with the Coastal Non-Point Program.
    Since the Act was created in 1972, there has been little 
respite from human impacts in coastal areas. It is expected 
that by 2015, 25 million more people will move to the coasts. 
Where will our already crowded coasts put these 25 million 
people?
    What impact will these new residents have? The answers, and 
our greatest hope for the coasts, lie in a carefully crafted 
and well-defined Coastal Zone Management Act. Coast Alliance 
believes that the Act has provided much needed attention to 
coastal issues, promoted inter-governmental coordination, and 
comprehensive solutions.
    However, it has not sufficiently addressed coastal 
pollution. Through reauthorization, Congress should give the 
Coastal Non-Point Program a chance to be effectively 
implemented.
    As Congress embarks on this important task, Coast Alliance 
and its affiliated organizations believe that the Act should 
reflect the following principles.
    First, since polluted run-off is the number one cause of 
water quality impairment threatening coastal economies and 
aquatic resources, the Coastal Non-Point Program must be 
integrated into the Act, and sufficient funds must be 
authorized for its support. Second, the program's penalty 
provisions and its requirement for enforceable mechanisms 
should be maintained.
    Third, any new projects or grant programs supported through 
appropriations under this Act, should be environmentally 
protective. While the impacts of some projects like beach re-
nourishment, dredging, shore line stabilization may be a matter 
of debate--there are certainly many sources of funding 
available for those programs.
    Therefore, the financial resources made available under the 
Coastal Zone Management Act should be focused on model projects 
that demonstrate agreed upon benefits to coastal resources, not 
those with definite or potential ecological impacts.
    We feel strongly that Congress should only fund projects 
that serve as models of environmental protection through this 
Act to minimize rather than facilitate the impacts of growth.
    As for run-off, besides contributing to the closure of 
nearly 3 million acres of the Nation's shellfish beds, polluted 
run-off is credited with degrading at least 1/3 of surveyed 
rivers and streams, and causing a dead zone covering more than 
6,000 square miles in the Gulf of Mexico every year.
    Polluted run-off also promoted the toxic Pfiesteria 
outbreaks on the mid-Atlantic coast. It made bathers sick on 
beaches in California and clogged important shipping channels 
in the Great Lakes and elsewhere. However, compared to 
factories and sewage treatment plants, this source of pollution 
is essentially unregulated.
    The Coastal Non-Point Program can help us begin to solve 
these problems. It is a policy tool that Congress created. It 
can stop run-off from taking its tool on local waterways. Coast 
Alliance has been working closely with citizens, and State and 
Federal Government agencies to ensure that the Federal 
investment in this program is well-spent.
    We also have worked hard to help ensure adequate funding 
for the program. However, to date, the funding levels do not 
reflect the need or the degree to which run-off impairs the 
coasts.
    Dr. Hershman's study, which was mentioned earlier, found 
that one failure of the CZMA Program, according to its senior 
managers, was that it had not adequately addressed water 
quality protection, watershed management or non-point 
pollution.
    To ensure that its investment in the program pays off, 
Congress must incorporate the Coastal Non-Point Program into 
the Coastal Zone Management Act and provide funding to ensure 
its implementation.
    In summary, it simply does not make sense with the 
increased recognition of run-off related impacts and the 
increased environmental awareness on the part of the public to 
pass a coastal management law that does not explicitly provide 
for environmentally sound projects, and does not reiterate our 
commitment to controlling polluted run-off.
    Development and run-off pollution are the two greatest 
threats to the coasts. The Coastal Non-Point Program needs to 
be given a chance to work.
    Thank you very much, Mr. Chairman, and members of this 
Subcommittee for giving us the opportunity to speak today.
    [The prepared statement of Ms. Savitz may be found at the 
end of the hearing.]
    Mr. Saxton.  Thank you.
    Mr. Howard Park, a representative of PWC Industry. Welcome, 
sir. We are very anxious to hear what you have to say.

   STATEMENT OF HOWARD PARK, CONSULTANT, PERSONAL WATERCRAFT 
                      INDUSTRY ASSOCIATION

    Mr. Park.  Thank you.
    First, I would like to ask that my written statement be 
entered into the record with just one correction. There is a 
reference on the first page on a New Jersey bill that we 
support to deal with some of the concerns in Barnegat Bay.
    I had given the wrong number for that bill. The bills we do 
support are Assembly Bill 2520 and Senate Bill 1384, not 
Assembly Bill 653 as I had said in my statement.
    We know that there are a lot of problems and challenges 
with personal watercraft use and a lot of conflicts with 
sailors like yourself and other people who use the waterways.
    We very much do want to work with government at all levels 
to address these problems. We feel that generally the best 
place is the state and local level. We have spearheaded efforts 
to reduce sound emissions from personal watercraft.
    This year, one member company has new technology that 
reduces sound by 70 percent. One company is claiming 50 percent 
for another technology. We are proud of the progress we have 
made in that area. We want to continue it.
    We also believe, just sort of in summary, that the language 
in this bill, especially as it concerns the definition of 
sensitive areas, is too broad. We would like, again, to work 
with you on it.
    First of all, it has always been our position that personal 
watercraft do not belong in shallow waters under 2 feet. All of 
our safety materials and owner's manuals say do not operate in 
areas under 2 feet in depth.
    So, we have no problem with rules or regulations that 
incorporate that. You can do damage to a personal watercraft if 
you operate in shallow areas because it can take in aquatic 
vegetation, sand, or other things. That is not good for the 
engines. So, we do not support operating in shallow waters.
    It is not correct, however, that only personal watercraft 
can access those waters. Jet boats, which are not defined as 
personal watercraft, can also access many shallow areas as can 
some other types of vessels.
    Many of those types of vessels are becoming more popular. 
So, that is something that we would like you to consider. There 
has been considerable research into the effects of personal 
watercraft on vegetation and wildlife.
    I know there was a study done up at Barnegat Bay. I would 
also like you to note some other studies that have been done.
    I have some of this material that I would like to enter 
into the record that comes to opposite conclusions from the 
study that was done in Barnegat Bay.
    [The material referred to may be found at the end of the 
hearing.]
    Mr. Park.  I would like to read just two sentences from Dr. 
James Rogers, who is a biologist with the Florida Game Fresh 
Water Fish Commission, who has conducted extensive research 
into this issue.
    According to him, ``a PWC moving at idle speed obliquely to 
the birds should produce the same flushing response as an 
outboard motor boat. Similarly, a fast moving motor boat headed 
directly at the birds with a deep V-bow throwing white spray 
should produce a flushing response similar to that of a PWC 
being operated in a similar manner.''
    There has been work done in this area. I hope the 
Subcommittee and the staff takes a look at it. To address a 
little more specifically your concern about the language in the 
bill under discussion, it defines sensitive area as any area in 
the coastal zone that contains living marine resources and 
birds that may be impacted during the operation of a PWC.
    We would like to see that narrowed. We would like to see it 
be something that could be measured; a definition that the 
boaters could know where they are going and what that does 
include. We think that the current definition, as I have said 
is a little broad.
    I started off by talking about conflicts. We really feel 
that we are taking steps to address these conflicts with PWC 
use.
    I mentioned the sound reduction. That has just been 
introduced this year. So, you will not be able to really notice 
it on the water for a while. As the newer craft become out 
there and older ones are phased out, we think it will make a 
big difference.
    We also support mandatory education for personal watercraft 
operators. New Jersey was the second State to adopt mandatory 
education. There was a pretty significant accident decline in 
the year after that was adopted in New Jersey. Connecticut has 
also seen similar results.
    We also support tough model legislation on controlling 
business that rent personal watercraft. We have an agreement 
with the EPA to reduce emissions from personal watercraft. We 
have loaned personal watercraft to well over 1,500 law 
enforcement agencies so they can enforce the laws on the water.
    A lot of the marine law enforcement has been cut back. We 
also support a minimum age of 16 for personal watercraft 
operation. Only about eight states have adopted 16. Most are 
much lower.
    Also, Mr. Vento mentioned before the concept of fees to 
support law enforcement or other impacts of personal 
watercraft. We have supported that concept. If it is earmarked 
for law enforcement, not just a tax, but if it is earmarked for 
activities that would help reduce impact, or law enforcement, 
or education, or other types of activities that would help deal 
with some of the challenges.
    I do not know about Governor Ventura, but our association 
did not oppose those fees in Minnesota. I believe they were 
imposed on some other boats too.
    I see the red light. Thank you very much.
    [The prepared statement of Mr. Park may be found at the end 
of the hearing.]
    Mr. Saxton.  Thank you very much, Mr. Park.
    We greatly appreciate your openness on this issue. We look 
forward to working with you. I have to apologize to Mr. Fote; 
however, we are about half-way through the time period that we 
have to get to the floor for a vote.
    So, we are going to have to recess temporarily. We will try 
to be back within 10 or 15 minutes.
    [Recess]
    Mr. Saxton.  We will proceed in the manner in which we were 
previously with Mr. Tom Fote, who is--are you President of the 
Jersey Coast Anglers or you were President?
    Mr. Fote.  I was President. Now, I am the Legislative 
Chairman for the Jersey Coast Anglers Association and the New 
Jersey Federation of Sportsmen Clubs. They are non-paid jobs. 
They basically dump things on me.
    Mr. Saxton.  Thank you very much. We have also shared some 
time on a boat together. So, welcome to the Subcommittee room. 
You may proceed.

   STATEMENT OF THOMAS FOTE, JERSEY COAST ANGLERS ASSOCIATION

    Mr. Fote.  I would like to thank Congressman Saxton and the 
Subcommittee for giving me this opportunity to testify on this 
important subject.
    I would be remiss if I did not thank Congressman Saxton and 
this Subcommittee for all of their hard work in protecting the 
marine resource and assisting on fair and equitable treatment 
for everyone in fisheries management plans.
    If you have been on a lake, river, bay, or ocean lately you 
realize there is a strong need for federally-mandated 
regulations for the approximately one million personal 
watercraft that are on U.S. waters.
    The manufacturers estimate about 130,000 are sold each 
year. At this time, at least half of the states in this country 
have some form of proposed or disputed regulation restrictions 
or guidelines for the use of personal watercraft.
    This is a growing problem that needs to be addressed 
federally. I have provided a list of the states who have 
restricted uses. The number is growing daily. Each region 
should not have to defend its ecosystem separately to regulate 
and document the misuses of personal watercraft.
    With federally-mandated guidelines, each state could modify 
the guidelines to fit the needs of that particular region and 
body of water. No matter where you go in the U.S., local 
legislators are trying to find a suitable definition and 
Constitutionally-correct control for these crafts.
    I have included two of these definitions in my written 
testimony. In New Jersey, the Barnegat Bay Watershed 
Association has been working in conjunction with several groups 
and the industry to negotiate with local and state legislators 
and state agencies to define and identify key areas of concern 
regarding personal watercraft.
    In 1993, the Watershed Management Plan for Barnegat Bay 
included 12 action plan items to address personal watercraft. 
These action items included: increasing the presence of New 
Jersey Marine Law Enforcement Offices on Barnegat Bay during 
the peak boating season, posting No Wake Zones where vessel 
wakes are documented to be causing erosion of natural shore 
lines, identifying special use areas, and improving public 
awareness of existing vessel speed, and operating regulations.
    These types of actions are applicable on a Federal level. I 
have attached an August 7, 1998, letter prepared by the 
Barnegat Bay Watershed Association to Governor Christine Todd-
Whitman.
    It identifies seven recommendations for protecting the 
public safety and preventing environmental damage by use of a 
personal watercraft. The results are in a research paper 
entitled ``Issues and Problems Associated With Personal 
Watercraft on Barnegat Bay'' by Melissa R. Chinn, which is 
included in my written testimony.
    It details the environmental concerns of operating personal 
watercraft. The study by Dr. Joanna Burger entitled, ``Effects 
of Motorboats and Personal Watercraft on Flight Behavior Over a 
Colony of Common Terns,'' which I have included in my written 
testimony.
    We urge Congress to review the attached documents and look 
toward creating Federal guidelines for the following issues. 
Environmentally, we need to restrict shallow water uses in 
sensitive habitat.
    It is documented that when operating a personal watercraft 
in shallow waters, bottom sediments are suspended there and 
causes increasing turbidity and decreases light penetration and 
oxygen to aquatic life.
    Operating personal watercraft close to birds, closer to 
shore near Colonial Water Nesting sites disturb the birds 
causing them to fly away from the nests and exposing the eggs 
to increased amounts of harsh sun rays, and also leaving them 
wide open to predators.
    Peak use of personal watercraft corresponds with the 
nesting season for a variety of Colonial Water Birds that nest 
in Barnegat Bay, as well as other New Jersey estuaries, and as 
a matter of fact up and down the coast.
    Education. We need a broader voter education curriculum for 
personal watercraft users. A recent death on a personal 
watercraft in Barnegat Bay was directly related to a lack of 
education and an unlicensed driver. I included that article in 
my written testimony.
    One out of 10 accidents on water in 1997 were related to 
personal watercraft use. Fatalities involving personal 
watercraft have increased from 20 in 1988 to 83 in 1997. 
Although the average age of the owners is in the mid-40s, the 
operators involved in accidents are usually in their teens to 
mid-30s. More education and stiffer penalties for unlicensed 
users are clearly necessary.
    Enforcement. To ensure the above happens, we need increased 
funding for our enforcement agents to patrol the water ways 
entailing the use of personal watercraft. Without more law 
enforcement on the water, all of the laws you pass will not 
make one bit of difference.
    This legislation should include law enforcement grants for 
pilot projects to encourage local municipalities. They would 
allow local government to have an increased law enforcement 
presence on the water.
    If all states require licenses and these licenses were 
treated like automobile privileges, such as fining those 
without a license, and confiscating the vessel of those 
operating personal watercraft without a license, personal 
watercraft problems would be greatly diminished.
    A harsher penalty, such as paying for towing the vessel 
once it is confiscated, and regular enforcement to ensure the 
safe and appropriate use of personal watercraft by licensed 
users is recommended.
    It is clear that this is a national growing issue. Congress 
can begin by focusing its attention on the coastal zone by 
strengthening laws that control personal watercraft in 
environmentally sensitive areas.
    However, the problems are not isolated to coastal areas, as 
many inland fresh water lakes are encountering the same types 
of concerns. For the safety of the users, other boaters, and 
for the environment, we urge Congress to focus on the issues by 
synthesizing all state initiatives into one guiding piece of 
legislation, which every state can implement to their needs.
    Two personal notes; one, we are affiliated with Coastal 
Alliance. We agree with all of their comments. Over the years 
in testifying before this Subcommittee, it has always been fun 
and very easy because of the work Sharon McKenna has been 
doing.
    I hear she is leaving. Today is her last Subcommittee. I 
wish to thank her. The State of New Jersey wishes to thank her, 
the groups that are involved, when they come before this 
Subcommittee for all of the help she gives them. So, thank you, 
Congressman.
    [The prepared statement of Mr. Fote may be found at the end 
of the hearing.]
    Mr. Saxton.  Thank you very much, Mr. Fote.
    You are right. We will miss her. We have said that many 
times, but I have sneaky suspicion that she will not be a 
stranger.
    Mr. Fote.  Well, we are going to go fishing in New Jersey.
    Mr. Saxton.  Thank you very much. Mr. Fote, the issue that 
you concentrated on, that being, of course, personal watercraft 
and their use, it is fairly obvious that there are some issues 
to be addressed, including safety, noise, et cetera.
    Our concern, obviously, involves those issues. Our concern 
for the purposes of this hearing had to do with the 
environmental impact, or the potential environmental impact 
brought about by the use or misuse of personal watercraft.
    Can you comment relative to what your feelings are on those 
issues?
    Mr. Fote.  Yes. An example is Barnegat Bay. We have 
basically spent a lot of time, money, and energy in increasing 
the population of Ospreys. Fifteen years ago, there were no 
Ospreys in Barnegat Bay.
    Now, they are starting to come back. We found that the 
personal watercraft or jet skis as I call them, start running 
around the nesting areas. The birds get off the eggs.
    Those birds are not having chicks. We had the worst year 
last year. Pete McLane has documented it. Pete has done a lot 
of work on Barnegat Bay. That is one of the other concerns.
    There is a picture I included in my testimony that shows 
what a personal watercraft is. You know, a motorboat runs from 
one location to another location. Usually it stops, fishes, 
crabs, does something.
    Personal watercraft, the idea is to run the vehicle; run, 
run, run, run. There is a picture in there that just basically 
shows it going around, and around, and around. Well, we have a 
corresponding picture that shows the submerged aquatic 
vegetation after he got away from there.
    It was going in that round circle that had went around and 
around. When you stir up the sediment, you also affect the 
clams in that area. So, the clams basically, the algae that is 
supposed to be feeding them is basically destroyed. That is 
what we are worried about.
    Now, outboard motors do the same thing. I will agree with 
you that they will do some of that, but they are not running 
constantly. They are going from one location to another.
    When you have got it going with jet propulsion, it keeps 
sucking in the algae, small embryos of the fish out there, the 
small embryos of the clams out there, suck them through the 
intake and heating them up and killing them. That is a concern.
    The safety issues, yes. There are a lot of them. A couple 
of deaths in States like Florida have had and we have had. We 
have got to be concerned on how we deal with it.
    We are not looking to put an industry out of business. The 
industry has been working hard. I think the thing about the 
license would very much help. One of the areas which we broke 
through and which you are doing a lot of work in Barnegat Bay 
with, the bay next to the ocean again; that one area there.
    The jet skis started using it. There is only a foot of 
water. All of the wildlife is being destroyed there. It also 
helps to reinforce the cut, because every time they go through 
there, they push the water into the sod banks which makes the 
cut larger and larger.
    Those are our concerns.
    Mr. Saxton.  Thank you very much, Tom.
    Mr. Park, just so you know, I am a sailor, but my daughter 
and my son-in-law are both personal watercraft users. So, I 
just do not want you to think that I have a totally one sided 
point of view on this issue.
    The personal watercraft industry, I think, Mr. Park, should 
be commended for your efforts to improve operator safety and 
awareness. I think that is extremely commendable. We appreciate 
that very much.
    Mr. Park.  Thank you.
    Mr. Saxton.  A large percentage of users do not appear to 
be following the recommended guidelines, particularly with 
regard to the shallow water issue and the use in those issues. 
Other than prohibiting uses in sensitive areas, what else can 
be done to try to modify this behavior?
    Mr. Park.  Well, one thing, obviously, is mandatory 
education. We were the first group in the marine industry to 
support mandatory education. That position has now been adopted 
by the National Association of State Boating Law 
Administrators.
    I know that in Connecticut, which has the longest track 
record in requiring education, that they have seen a decline in 
complaints and a decline in accidents. Minnesota had a very 
aggressive personal watercraft education campaign where they 
mailed video tapes to all of the operators in the State.
    They had a 50 percent decline in accidents last year. As I 
said before, operation in a shallow area under 2 feet in depth 
should not be allowed. Neither should other boats that can 
access such areas.
    We would like to work with you on implementing that. We 
support legislation in the states to implement that.
    Mr. Saxton.  Thank you very much.
    Ms. Savitz, obviously, we know the situation in New Jersey, 
that is Mr. Fote and I do and others that work for me know the 
situation in New Jersey. I am curious to know what your 
perspective would be from a more national viewpoint.
    Ms. Savitz.  Well, Chairman Saxton, we are obviously not 
working on this issue as closely as these gentlemen are. My 
experience with a jet ski was actually in New Jersey as well 
growing up on Long Beach Island.
    It is pretty well-recognized that there are impacts to 
wetlands and shallow water habitats. We commend your continued 
work to protect those coastal areas.
    Mr. Saxton.  Thank you very much. Mr. Faleomavaega.
    Mr. Faleomavaega.  Thank you, Mr. Chairman.
    I would like to ask Ms. Savitz to be the arbitrator between 
Mr. Park and Mr. Fote. I would like to ask Mr. Park, we are 
required to have licenses for dogs, for mopeds; just about 
everything that goes on the road.
    Do you think that maybe we also should have licensing 
requirements for PWCs?
    Mr. Park.  We favor certification requirements that you 
must pass a course or an equivalency test. We favor that the 
certificate could be revoked any time. The only difference is 
when you kind of get caught up in the semantics with this, we 
would not favor something that you would have to renew, you 
know, go to some office and stand in line every 5 years to 
renew the so-called license. I think the certification would 
accomplish the same goal.
    Mr. Faleomavaega.  As I recall, we had small water skis. 
Now we have huge ones. I mean theirs are as big as boats.
    Mr. Park.  That is right. There has been a craft introduced 
this year that can accommodate up to four people. The lines 
between boats and so-called personal watercraft has really been 
blurred lately. That is true.
    Mr. Faleomavaega.  Do you think it is proper also that the 
government should be involved in, or state governments for that 
matter, in allocating certain areas where it is required that 
they can then use the PWCs or do you think they should go 
anywhere they want?
    Mr. Park.  I do not think they should go anywhere they 
want. I think they should go to areas where other forms of 
relatively high speed motorized boating is appropriate, but not 
in areas where it is not appropriate.
    Mr. Faleomavaega.  So, they should be properly regulated as 
far as the use of PWCs.
    Mr. Park.  Yes. Mr. Fote talked about 25 states. I believe 
it is now about 47 states. I could be off by one or two that 
specifically regulate personal watercraft in some form.
    Mr. Faleomavaega.  Do you think that we should do this by 
way of providing some kind of national legislation or the 
states themselves should be able to do this on their own?
    Mr. Park.  I think the states should be able to do it on 
their own. It is time that the states have responded.
    Mr. Faleomavaega.  Mr. Fote, do you agree with that?
    Mr. Fote.  My sister is a County Commissioner in Chelan 
County in Washington State. She is calling me up and I am 
sending her all of information on jet skis. The problem is 
every time you pass a regulation they wind up in court.
    California has done it a number of times, Oregon, 
Washington State. We need you to setup a definition. We need 
you to setup what a sensitive area's control. We are not asking 
you to define it in a very particular way, just on a broad base 
to give the states some guidelines so when they go and put 
their regulations in, they have some ground to stand upon.
    The definitions are important because California has 
lawsuits that are going on. There are about 20 of them right 
now in individual states. That is what we are looking for, a 
Federal law that would give us a definition so we could stand 
up in court.
    The industry and us are not far apart. I am involved with 
marine trades. Jersey Coast Anglers Association represents 60 
fishing clubs. So, we are involved with them all of the time. 
We are trying to work together. The marine trades are working 
very hard. It is the unlicensed persons.
    A simple example is I have a house on the water. The person 
next to me lives on the water also. He throws a party on the 
weekend. You have got 40 guests. They have not been trained. 
They do not know any of the rules and they all just get the 
keys and they jump on the jet skis.
    He does not support that. I do not support that. The 
problem is they are the ones that go out and cause trouble. 
That is what the two deaths on Barnegat Bay were. Well, that is 
what I am saying.
    If you license them, if you can confiscate the vehicle, 
like you would not give your 14 year old nephew the keys to 
your car. You should not give him the keys to the jet ski.
    If you had to pay a $250 towing bill because it got 
confiscated, you would think twice before you gave him the keys 
to the car. If you lost your insurance because you gave him the 
key, you would also think twice before.
    That would eliminate a lot of the problems. Both of us 
support that position. They should be trained. They should be 
certified. If you are on the water without a certification--
because we are working in New Jersey doing aquatic education.
    So, you will learn these things. You have got to make them 
responsible for going to the school. If you do not have them 
going to school, all of the training--the other point I really 
want to make is that we need law enforcement on the water. 
Every time we pass a law, and he agrees with me 100 percent.
    Barnegat Bay, we do not have enough law enforcement. You 
should be basically--where you really could help is funding 
some local municipality grants. Give them some money to hire 
local law enforcement.
    I guarantee you that industry will come up with the jet 
skis to supply those law enforcement officials so they could 
come out and enforce the laws, but we need some money there. 
Once it is proved to the municipalities that this can be done 
because it is very effective, then they will support us.
    They will pickup the funds, you know, a 3 year grid. That 
is it. Then you take it over and operate it.
    Mr. Faleomavaega.  I think, Mr. Fote, your point is well-
taken. I am sure the Chairman and certainly myself if there is 
such a strong feeling among the states, you know, sometimes we 
get the impression that the states are telling the Congress, 
get off our backs. Let us do it ourselves.
    As you well know, Mr. Fote, there have been countless 
examples where the Congress has enacted laws and we still end 
up in court.
    Mr. Fote.  Well, on this one, you got Commissioner Shinn 
coming up after I am, so you can ask him. He is the 
Commissioner of New Jersey. We are working on the Barnegat Bay 
Estuarine Program. Some of the environmentalists wanted to put 
three opening shutters--of a jet ski getting shot or blown up 
as the opening to the video.
    We do not want things like that. I think the states will 
work closely with you and they really want the regulations and 
the help from Congress.
    Mr. Faleomavaega.  Mr. Fote, I am sure that the Chairman 
and certainly myself will be more than willing to help in any 
way that we can. If you have some good wording, or language, or 
a draft, or whatever that maybe you and Mr. Park could work 
out, maybe that is something we can look at.
    Ms. Savitz, I have got one question for you. With reference 
to the Coastal Non-Point Pollution Control Program, I think 
your statement suggest that we ought to incorporate that 
program into the Coastal Zone Management Act? Can you elaborate 
why we should do this?
    Ms. Savitz.  Well, thank you for asking. I just want to 
note that my arbitration skills were very well displayed. They 
did not fight at all.
    The Coastal Non-Point Program really has not been given a 
chance to work. It was setup by Congress in 1990 because of a 
recognition that existing programs were not working and that 
our coasts were continually being barraged by non-point source 
pollution.
    The way the program is setup is that states develop these 
plans to control run-off and then eventually implement them. 
After a while, we have progress. As you know, things do not 
happen over night.
    States have all developed these plans, or the states that 
are participating in the Coastal Zone Program have. It is time 
to start putting them into practice. So, we have moved pretty 
far down the road, but we have not actually seen the benefits 
of that work yet.
    We feel very strongly about this program. We think it is 
something that can be done that can really make a difference on 
the coast and really provide some of the kinds of outcomes that 
are being looked for. We are concerned about the state of the 
program, if it is not taken up and reauthorized.
    Mr. Faleomavaega.  Thank you, Mr. Chairman.
    Mr. Saxton.  Thank you. Mr. Vento.
    Mr. Vento.  Well, on that point, is the reauthorization 
expired for the non-point? Does it expire? Is that the point?
    Ms. Savitz.  The funding authorization has expired.
    Mr. Vento.  So, that is why it should be taken because it 
is an integral part. I mean, that obviously touches on a couple 
of different areas of responsibility I guess in Congress.
    It is integral to what happens in terms of these coastal 
zone management of plan and the outcome. That is your point?
    Ms. Savitz.  Exactly. Thank you.
    Mr. Vento.  I am just trying to understand it. You probably 
made it well the first time. On the personal watercraft, I 
think there is a lot of agreement here in terms of having this 
as a part of the plan, some way to deal with it, and have the 
states address it.
    So, I do not know that you need to get into anything more 
on it than that as long as there is agreement. Obviously, 
definition of sensitive areas has to take in safety and other 
areas.
    Some of this is common sense, I guess, they cannot go where 
there are swimming areas and so forth. I suppose the issue you 
get into is whether they are treated differently than other 
types of watercraft.
    I think they probably need to be in order to effectively 
deal with them which is one of the problems. I think one of our 
problems in Minnesota is we have got sort of a split 
personality on this is because we have produced some of these 
products too.
    So, I do not know. I hear comments, Mr. Fote, about law 
enforcement. I think you are exactly with regards to licensure 
and so forth, but most of those issues can be left up to the 
states.
    There has been an increasing interest both in personal 
watercraft and I might say snowmobiles in Minnesota in terms of 
licensure and treating them more in terms of training. There is 
also a big pollution problem that occurs with these because of 
the amount of fuel with the two-cycle engine where it throws a 
lot of fuel out.
    I know that, that occurs with other types of outboard 
motors as well, but these tend to be going at a high 
performance rate most of the time. So, they tend to throw out a 
lot more.
    It is mostly for recreation and it is not from point-to-
point where you stop and so forth. The same is true, 
incidently, of air quality problems in automobiles. It is very 
serious, putting out 50 times more than a car puts out.
    Mr. Park.  Can I comment briefly?
    Mr. Vento.  Yes, yes.
    Mr. Park.  There is an agreement with the EPA to phase in 
the cleaner engines gradually by 2006. I just wanted to note 
that for the record on the pollution issue.
    You also talked about treating them differently than other 
boats. With the definition blurring between a personal 
watercraft and other types of boats, I would hope that is 
something that you would take into account, if you do believe 
they should be treated differently. Many of the same types of 
activities can occur with other types of boats that are not 
defined as personal watercraft. Again, we would like to work 
with you on that.
    Mr. Vento.  Yes. Well, I understand the Chairman will have 
to make that. I understand that they probably have to have 
rules to just keep all of these, especially this type of craft, 
because there are so many other types of craft that can also 
get into shallow waters that are motorized.
    Obviously, in the case of the fuel, you have such an 
accumulation, such an intensity of use in some of these bays, 
you could literally have a situation where it is having an 
impact in terms of the ecosystem.
    Thank you, Mr. Chairman.
    Mr. Saxton.  Thank you.
    Thank you very much for traveling as far as you each did to 
come and visit with us today. We appreciate your perspectives. 
Now, we will move on to the next panel.
    The first witness on our fourth and final panel is Mr. 
Robert Shinn, who is no stranger to those of us who have known 
him for many, many years. He not only until very recently had a 
house on the water on Barnegat Bay, but also has served as the 
mayor of a small community, as a Tree Holder on the County 
level, which for those of you who do not know, a Tree Holder is 
the legislator on the County level in New Jersey, and is now 
the Commissioner of the Department of Environmental Protection 
in the Whitman Administration in New Jersey. Also, Dr. Marc 
Hershman, Director and Professor, the School of Marine Affairs 
at the University of Washington; Ms. Sarah Cooksey, President 
of the Coastal States Organization, also no stranger to us; and 
Mr. Gary Lytton, President, National Estuarine Research Reserve 
Association.
    Welcome aboard. Bob, you may begin. Welcome.

STATEMENT OF ROBERT C. SHINN, JR., COMMISSIONER, DEPARTMENT OF 
                    ENVIRONMENTAL PROTECTION

    Mr. Shinn.  Thank you, Mr. Chairman and members of this 
Subcommittee for the opportunity to appear before you today and 
the importance of this issue to the residents of New Jersey.
    Before I go on with my testimony, I just have to compliment 
you, Mr. Chairman on the lens from the lighthouse. I am a 
lighthouse fan. I was sitting in the audience and I was struck 
by the potential of the magnification of the lens verses these 
lights.
    I was thinking if that light was situation in the middle of 
that globe, you would have a lot more magnification of the 
yellow and red light and it may, in essence, save the 
Subcommittee time in testimony. It might be a thought. It 
certainly would enhance the lens which is gorgeous.
    Mr. Saxton.  That is a great suggestion. It would only take 
100 years around here to get something like that done.
    Mr. Shinn.  I also want to thank you, Mr. Chairman, for 
focusing on this issue and for your support and diligence in 
working with all sorts of issues in New Jersey from the Jacques 
Cousteau Research Center to dredging the Tuckeren Seaport 
Project and working through the issues with us that are very 
controversial. You have made a great difference and a great 
contribution to our efforts. I thank you for that.
    It was just roughly 10 years ago that, and I know you 
remember it well, Mr. Chairman, that we had 803 beach closings 
in New Jersey. We had an intensive monitoring program in New 
Jersey.
    I can tell you, it created absolute chaos in the 
legislature. Our tourism took a nose dive. Sometimes it is hard 
to find indicators of progress. This last summer, we had three 
beach closings in New Jersey, with a more intense monitoring 
program than we had in 1988.
    So, a 10 year time frame, and if you think of 1988 from an 
economic perspective, we had good economic times in 1988. Good 
economic times puts pressure on the environment because you 
have more traveling with cars.
    You have more industry, more activity. People go on 
vacations more, et cetera. I think it is a pretty good 
indicator that we have made significant progress in good 
economic times with minimizing our impact on the coast.
    Not to say we do not have a lot more work to do because we 
do. At the same time, we have decreased our bad air days in New 
Jersey under the One Hour Ozone Standard. In 1998, again, in 
good economic times we had 45 one hour violations of the Ozone 
Standard.
    This past year, we had 4. So, we are pretty proud of that 
record ourselves. So, we are making a significant progress in 
both air and water quality.
    I want to state up front that the Coastal Zone Management 
Act is a Federal-State partnership that works and works quite 
well. The flexibility it offers the states in meeting their 
priorities, while maintaining non-obtrusive Federal oversight 
has served as a model for Federal and State voluntary 
agreements.
    In fact, it is the same kind of results-based performance 
partnership that we are striving to achieve with EPA through 
our National Environmental Performance Partnership Process.
    We have not quite got to where we want to be, yet, but we 
are trying awful hard on both sides. I think we are making 
significant progress. I also wanted to point out that the 
Coastal Zone Management Act was 20 years ahead of the curve in 
its effort to promote the principles of sustainability by 
balancing the goals of a vibrant economy and a healthy natural 
resource.
    I can tell you that it has only been about 5 short years 
ago that we integrated in our mission statement in New Jersey 
the integration of environmental quality and economic 
prosperity.
    That was quite controversial at that time. The Coastal Zone 
Management Act was really ahead of that and recognized that 
compatibility before certainly we did as a state and many 
states did not.
    Although New Jersey is a small State, it has an extensive 
coast line zone with nearly 1,800 miles of tidal shore line. 
Most of our 20 major watersheds containing 6,450 miles of 
rivers drain directly into tidal waters.
    Our coastal zone is the lifeline of some of New Jersey's 
largest industries, including recreation, tourism, shipping, 
commercial fishing, and shell fishing. Needless to say, our 
coast is a vital economic and environment resource to New 
Jersey.
    Managing this resource for sustainability poses major 
challenges, as you know; the challenges of promoting smart 
growth, a vibrant economy, a clean environment, and ample open 
spaces, and a healthy and abundant natural resources.
    In fact, our report to the public this year on our cover is 
a picture of our coast line. Our coast line is our major 
tourist attraction and our major promotion of the State of New 
Jersey.
    Take for example the Barnegat Bay region in your District. 
The Barnegat Bay is 42 miles in length. It is a relatively 
shallow, low flushing bay making it especially vulnerable to 
pollution.
    Its watershed drains 550 square miles of land. In 1995, the 
U.S. EPA designated Barnegat Bay as a National Estuary ordering 
the southern end of the Barnegat Bay as, of course, you know 
the Jacques Cousteau National Estuarine Preserve at Mollica 
River and Great Bay, so designated by NOAA in 1997; thank to 
your efforts.
    The Mollica River Great Bay System is considered one of the 
most pristine coastal estuaries of the coast and provides 
excellent scientific baseline data for managing Barnegat Bay, 
which has much greater development pressures and much greater 
indicators of those pressures.
    It looks like I am getting the hook. So, I will try to 
expedite my testimony to the close. I just want to say that New 
Jersey has been very advanced over the past 2 years in putting 
its Watershed Management Program together and basing it on a 
Geographic Information System, or GIS as you noted.
    It is well on its way. We have both our coastal program 
funding. We have our corporate business tax funding. We are 
working in 96 individual watersheds in New Jersey. We have 
our--Program and our State Planning Program in place.
    We have the new Governor's commitment for $98 million a 
year for a 10 year period for the million acre acquisition, and 
then another $98 million a year for up to 20 years for debt 
service satisfaction.
    Acquisition is a major part of this. Flexibility is a major 
part of it. We do not need to reinvent the wheel. We need to 
enhance partnerships. I think you have got a good history of 
doing that. So, my suggestion is not to make major changes.
    Let us just fine tune what is working well and we are 
finally into the non-point pollution business and smart 
watershed planning. Let us continue it.
    Thank you.
    [The prepared statement of Mr. Shinn may be found at the 
end of the hearing.]
    Mr. Saxton.  Thank you.
    Let us move now to Dr. Hershman.

 STATEMENT OF MARC J. HERSHMAN, DIRECTOR AND PROFESSOR, SCHOOL 
          OF MARINE AFFAIRS, UNIVERSITY OF WASHINGTON

    Dr. Hershman.  Thank you very much for permitting me to 
come and tell you about a study that was commissioned by the 
Federal Office of Ocean and Coastal Resource Management within 
NOAA.
    This study was called the Coastal Zone Management 
Effectiveness Study. It was undertaken between 1995 and 1997. 
Our goal was to determine how well the state management 
programs were implementing the goals of the Coastal Zone 
Management Act.
    We studied five of the core objectives of the Coastal Zone 
Management Act: protection of estuaries and wetlands; 
protection of beaches, dunes, bluffs, and rocky shores; 
providing public access to the shore; revitalizing urban 
waterfronts, and accommodating seaport development as an 
example of a coastal-dependent use.
    In carrying out the study, we examined all of the 29 state 
programs that were approved at the time that we were doing the 
study. We reviewed documents and data and conducted interviews 
with state officials.
    We sought information on governmental processes, but we 
also tried to seek information of on the ground outcomes of the 
program efforts. This was the way our study differed from many 
that had been done in the past.
    Detailed state profiles were developed. There are five 
national technical reports on file with the OCRM, which soon 
will be on their Home Page. Article-length summaries will be 
published in Coastal Management journal in Spring of 1999.
    We have three major conclusions which I would like to share 
with you briefly. Our team included six investigators. I am 
joined here today by Virginia Lee, from the Rhode Island Sea 
Grant Program, one of the other co-PIs and co-author.
    Our team concluded that state CZM Programs are effectively 
implementing the five CZMA objectives we examined. This 
conclusion is based on policies, processes, and tools used, and 
only on limited outcome data and case examples that we could 
find.
    Here are some examples of conclusions. For about 1/3 of the 
states, there was sufficient outcome data to show effectiveness 
in protecting wetlands and estuaries. These 12 states, for 
which we had adequate data, we believe are representative of 
all states. This is an area where we think the CZMA is 
achieving its goal.
    Beach and dune resources are being protected based on the 
high number of regulatory tools in use, and the fact that these 
tools are being upgraded year-by-year. In fact, there have been 
over 60 upgrades over the history of the program. Beach and 
dune protection is the most difficult area to show outcomes on 
because the protection of the resource must be balanced with 
pressures to provide recreational opportunity and to protect 
private property rights.
    Public access to the coast is being advanced using 
regulatory acquisition, technical assistance, education and 
outreach programs. Roughly, 455 public access related projects 
were funded in the late 1980s. Coastal managers estimate over 
12,000 public access sites are available in 26 of the 29 
states.
    Over 303 Urban Waterfront Revitalization Districts in the 
U.S. have benefited from Coastal Zone Management Program funds 
and design assistance. On average, these districts are half-way 
to full revitalization. ``Half-way'' means that infrastructure 
has been improved and at least one redevelopment project has 
been completed.
    Of 12 ``port-active'' states, where large scale general 
cargo ports operate, there are specific policies and regulatory 
tools to expedite port development, including financial grants, 
specific port development zones, and expedited regulatory 
reviews.
    Despite these findings which indicate substantial 
achievement of goals, we believe there are insufficient data 
for systematic outcome-based performance evaluation of the 
state programs.
    What we need is a common set of outcome indicators that 
would link state management activities to the national CZMA 
objectives. Outcome indicators must be developed that balance 
State and Federal perspectives.
    Our study suggest many possible indicators, a selected 
number of which could be adopted. For example, one measure of 
wetlands protection could be the area of annual permitted loss 
per year as a percent of all regulated wetlands. Over a 5 year 
period, the trends in wetland loss would indicate whether we 
are moving forward in the protection area.
    An indicator of beach and dune protection could be 
stewardship projects induced by the CZM Program providing 
access ways, dune cross overs, and designated protected areas.
    Progress in waterfront revitalization could be tracked 
through an accounting of stages reached in the revitalization 
process, and the scope of the CZM goals achieved.
    We believe the time is ripe for Congress to initiate a 
national outcome monitoring and performance evaluation system. 
The OCRM should take the lead in implementing this process. 
Systematic outcome monitoring reporting and evaluation needs 
external stimulus and leadership.
    Coastal managers are already over-burdened with 
implementation tasks and they face political, legal, and 
financial pressures administering their programs. Congressional 
leadership will encourage a common set of indicators allowing 
comparisons across states and conclusions about national 
performance.
    In this way, on the ground outcomes from the national 
investment in CZM can be credibly measured. The rest of the 
testimony, I will ask to be included in the record, if that is 
possible.
    Thank you very much for giving us an opportunity to present 
the findings of this study.
    [The prepared statement of Dr. Hershman may be found at the 
end of the hearing.]
    Mr. Saxton.  Thank you very much, sir. Ms. Cooksey.

   STATEMENT OF SARAH W. COOKSEY, PRESIDENT, COASTAL STATES 
                          ORGANIZATION

    Ms. Cooksey.  Thank you, Chairman Saxton and other members 
of the Subcommittee for the invitation to testify. I am the 
Administrator of Delaware's Coastal Management Programs, where 
we have one of the oldest CZM Programs and one of the newest 
reserves.
    Today, I am testifying in my role as Chair of the Coastal 
States Organization, which you have said you are very familiar 
with.
    My written statement includes specific draft legislative 
amendments which we hope you will include in CZMA 
reauthorization. Please include it in the record.
    This morning you have heard testimony from many people 
representing many different interests. I am here to represent 
the people that are working in the trenches making the day-to-
day decisions that will have long-term impacts on the uses of 
the Nation's coastal zone.
    For example, communities in North Carolina, Florida, and 
Puerto Rico that need tools to make tough decisions regarding 
where to allow building after hurricanes have hit. Communities 
in Louisiana and other states that need assistance to protect 
and restore wetlands.
    States from Oregon to Maryland need to provide better 
assistance to communities to help them help themselves to make 
better informed local decisions regarding the cumulative impact 
of the hundreds of coastal management decisions that are being 
made every day.
    I will focus my oral comments and recommendations on 
amendments that will build on the CZMA's inherent strengths, 
and that will provide coastal managers and communities with 
three important things.
    We need tools to assist communities to address the 
unprecedented growth and development in these precious areas. 
We need to improve management oriented research, technical 
assistance, and support so that science is used to make better 
informed decisions regarding coastal issues.
    We also need to increase support for the administration and 
enhancement of coastal zone programs to further the protection 
and restoration of coastal resources while allowing for 
reasonable coastal dependent growth.
    This morning we have all talked about all of the good 
things in the CZMA. I am not going to repeat them. You know 
that the term ``smart growth'' and ``sustainable development'' 
were movements 20 years ago before the terminology became into 
vogue.
    Again, there are three fundamental issues which the CZMA 
can help us address. They are the pervasive and persistent 
affects of land-based sources of coastal pollution. The 
cumulative and secondary impact of increased development in 
coastal areas on habitat and water quality, and the potential 
for inefficient investment in public infrastructure resulting 
from urban sprawl.
    The CZMA should be amended to include a new section to 
provide dedicated support to states to assist in the 
development and implementation of local community-based 
solutions to the impacts of coastal uses and resources caused 
by increased development and urban sprawl.
    In 1998 alone, 124 ballot initiatives were approved by 
voters calling for improved management of development and 
conservation of open space. I would like to acknowledge the 
leadership of Commissioner Shinn and Governor Whitman in these 
areas.
    Last year, Congress approved billions of dollars for 
highway development. In the State of Delaware, a significant 
portion of these funds will undoubtedly go, as they should go, 
to improve access to our increasingly popular coastal resource 
communities.
    Those communities, however, will need our assistance if 
they are going to properly understand, plan for, and reduce 
potential impacts. In Delaware alone, $700 million was spent to 
manage 10 summer weekend traffic tie-ups and only $1 million 
was spent on beach nourishment.
    While the development of computer generated Geographical 
Information Systems, GIS, have expanded greatly the ability to 
identify the relation of existing development, future growth 
patterns and natural resources, few local governments have the 
capacity to utilize these or other sophisticated tools to plan 
to accommodate the inevitable future growth of these 
communities, while preserving the quality of life and ecosystem 
vitality.
    I have brought with me a brief description of GIS projects 
in Delaware that were undertaken with Kent County, which is 
designed to build their capacity to create build-out scenarios, 
determine prime areas for environmentally compatible 
development, and to control urban sprawl.
    This project has also resulted in decreasing preliminary 
permit review time from weeks to hours. We would like to expand 
this to other counties, but we cannot because of the lack of 
adequate resources.
    We recommend that $30 million be authorized to support 
these community growth management projects. This is consistent 
with the levels recommended in the Administration's Land Legacy 
Initiative.
    We can also improve NOAA's commitment to the application of 
science and research to on the ground decision-making. This was 
clearly demonstrated last year during the Pfiesteria crisis.
    Current provisions under section 310 of the CZMA calling 
for management oriented research and technical assistance from 
NOAA to the states should be strengthened. The Secretary should 
be required to provide a report and recommendation to this 
Subcommittee regarding the effectiveness of NOAA in providing 
such research and assistance.
    Finally, despite clear national benefits, Federal support 
for coastal zone management has not kept pace with growing 
challenges. Finding for state coastal programs in real terms 
has declined due to inflation and the addition of new States: 
Texas, Ohio, Georgia.
    The member from Minnesota soon will have a new CZM Program. 
In larger states, grants have been kept at $2 million a year 
for the past 8 years. The states recommend increasing 
authorization levels for base programs for administration and 
enhancement to $75 million in order to address this shortfall.
    This increase will also help states address polluted run-
off, including intrastate and state local coordination of 
initiatives to address the causes and impacts of non-point 
pollution; particularly as they relate to land use and linking 
water quality with other coastal resource protection.
    In addition, the CZM provides great general authority to 
undertake projects to preserve, restore, and provide public 
access to special areas of the state with conservation, 
recreation, ecological, and aesthetic value. Current 
limitations on the use of these funds should be removed and 
specific funding authorized to enable states to address 
preservation and restoration of these priority areas.
    CSO has proposed a modest annual funding increase of $12 
million. I have included specific projects in Delaware where we 
have worked together with parties that commonly disagree, 
agricultures, developers, and environmentalists, to show the 
processes that are in place in the CZMA can be effective.
    Before I conclude, Mr. Saxton, I would like to briefly 
address two issues of which I know you are concerned. First, 
the personal watercraft that we have talked about a little bit 
this morning.
    Many states are struggling with the impact of personal 
watercraft, as well as other recreational watercraft in 
sensitive coastal areas. CZM Programs are most effective when 
we are able to work collaboratively with communities.
    If the Subcommittee considers amendments to the CZMA to 
address personal watercraft, we suggest that state programs be 
permitted to work with communities to identify those areas 
where personal watercraft or other watercraft should be 
restricted.
    In the long run, the effectiveness of any restrictions will 
depend upon adequate enforcement and to have adequate 
enforcement you need the support of the local community. I 
would also like to bring your attention to Delaware's 
Environmental Indicators Project, which I have a handout on.
    We are seeking to identify environmental goals and 
prioritize environmental indicators to assess and track our 
progress in meeting these goals. Other states have similar 
projects which seek to focus on outcome rather than process 
goals.
    The states would like to work with your staff and NOAA to 
design appropriate outcome indicators for the CZMA. In summary, 
the CZMA should be amended to take advantage of its inherent 
strengths.
    I thank you very much for the opportunity to testimony. I 
look forward to working with you on this.
    [The prepared statement of Ms. Cooksey may be found at the 
end of the hearing.]
    Mr. Saxton.  Thank you very much, Ms. Cooksey. Mr. Lytton.

  STATEMENT OF GARY D. LYTTON, PRESIDENT, NATIONAL ESTUARINE 
                  RESEARCH RESERVE ASSOCIATION

    Mr. Lytton.  Mr. Chairman and members of the Subcommittee, 
my name is Gary Lytton. I am the President of the National 
Estuarine Research Reserve Association which represents the 
interests of the managers and staff of the 23 designated and 4 
proposed research reserves in the national system.
    I am the Director of the Rookery Bay National Research 
Reserve in Southwest Florida. I work for the Florida Department 
of Environmental Protection. I appreciate the opportunity to 
come before you today to provide comments on the 
reauthorization of the Coastal Zone Management Act.
    I request that my written testimony be included as a part 
of the record. Mr. Chairman, one of the most significant 
challenges in coastal management that we face is the 
increasingly important need to link relevant science- based 
information to the needs of coastal communities that are faced 
with making local decisions that have long term and profound 
consequences on the coast.
    We see that the CZMA is providing a very important 
framework for Federal, State, and local governments to address 
that need. The reauthorization of the Act provides a 
significant opportunity to address local decisions by coastal 
communities, by improving our ability to assess specific 
information needs at the local level, to strengthen the 
capacity of the Federal-State partnership to support relevant 
science meeting the needs of our coastal communities, and 
lastly to improve the delivery of science-based information and 
technology to coastal communities.
    The Research Reserve System is designed to promote informed 
coastal decisions. As I mentioned, we have 23 designated sites 
and 4 proposed sites. It is important to recognize that 
research reserves represent biogeographic regions that are 
dealing with common issues and resources.
    Each research reserve represents a biogeographic region 
with similar issues. We, in the last several years, have 
developed technical training workshops targeting local decision 
makers to help improve decision-making at the local level.
    We developed graduate research fellowship projects, as many 
as two, at each one of the research reserves that address non-
point issues and other science information needs relevant to 
local and regional communities.
    Lastly, we have developed a system wide monitoring program 
that is enabling us to assess changes in estuaries relevant to 
land use activities within our watersheds. I would like to also 
point out that resource stewardship and education and training 
have become very important components of the National Research 
Reserve's Core Mission. Some of our specific recommendations 
deal with changing some of the language in section 315 to 
reflect that.
    In fact, we have five specific recommendations that I will 
quickly review with you. We would recommend revision of the 
section 315 language to recognize the role of resource 
stewardship, restoration, education, and training, and the 
NERRS Core Mission.
    Secondly, we are proposing in addition to section 315 to 
recognize the need for a construction and acquisition fund to 
support the research reserves at the site level. There is this 
significant need to continue to complete the core research 
education and training facilities at our research reserves.
    Also, to acquire priority core lands in our reserves. 
Thirdly, we are asking for increased support for research 
reserves through increased authorization levels in section 318. 
Specifically, our association is recommending $12 million for 
section 315 operational funds in fiscal year 2000.
    Then an additional $12 million for construction and 
acquisition funds in a construction fund in section 315. We 
feel very strongly that these levels will help us meet our 
needs in completing our mission in the research reserves. Just 
quickly, I will mention that in 1993 an independent panel 
recommended a minimum of $10 million to operate research 
reserves when we had 22 sites. We are now moving to 25 sites.
    We also strongly support the Administration's efforts in 
the Land Legacy Initiative to increase levels for research 
reserves.
    The fourth point I will quickly mention is that research 
reserves are developing a new initiative that we are calling 
coastal institutes that will strengthen the research reserve 
capacity to deliver quality technical training delivered to 
coastal decision makers.
    We see coastal institutes as an opportunity to increase our 
partnership with our state CZM colleagues and also with NOAA. 
We look forward to working with you to develop the coastal 
institute initiative.
    Lastly, I will mention that research reserves are strongly 
supportive of the concept of measurable objectives for the 
CZMA. We look forward to working with our state CZM colleagues 
and also with NOAA to develop relevant outcome indicators that 
reflect the direction of the Research Reserves Program and its 
role in the CZMA.
    I do want to quickly mention that research reserve managers 
are also dealing with the issue of personal watercraft. I will 
give you an example. In Rookery Bay in Southwest Florida, we 
have developed a cooperative research project with the U.S. 
Fish and Wildlife Service to identify the science-based 
information relevant to not just personal watercraft, but to 
air boats and conventional watercraft operating in shallow 
water environments.
    We see this research effort to basically increase our 
understanding of the nature of the environmental impacts of 
these watercraft in these shallow water environments. The 
results of our research would then be shared with our state CZM 
Programs with our state and local agencies to help develop 
management recommendations to address this issue.
    Mr. Chairman, thank you for the opportunity to give 
comments. I will be glad to answer any questions you might 
have.
    [The prepared statement of Mr. Lytton may be found at the 
end of the hearing.]
    Mr. Saxton.  Thank you very much.
    We are going to go to Mr. Faleomavaega, the gentleman from 
American Samoa.
    Mr. Faleomavaega.  John Wayne, if it is all right with you.
    Mr. Saxton.  John Wayne.
    Mr. Faleomavaega.  Commissioner Shinn, I was listening to 
your testimony which I appreciate very much. Do I gather from 
all of the four witnesses on the panel, and any of you can 
respond, that pretty much you are satisfied with the way the 
CZMA authorization law is being written.
    Do you recommend major surgery in any specific area, 
besides increasing the funding level, a little trimming here 
and there, and refinement there?
    Is there a major portion of the current law that you feel 
very strongly about that there should be some major changes?
    Mr. Shinn.  I feel very strongly that we do not need major 
surgery. I think we have got a very successful program. I think 
we do need a common set of indicators in the system. I do not 
think we ought to convert the whole system to something 
different to gain that.
    We use indicators in New Jersey. We set goals and we look 
at indicators for water quality improvements. Certainly beach 
closings is one of our indicators.
    I think if we change the system too much, we are going to 
lose the foresightedness of this system that is built into it 
now. It is highly cooperative. I think there was a lot of 
vision in the Coastal Zone Management Act.
    We are using it very beneficially now. So, finally we are 
getting coordination among our programs for a successful 
result. We really do not want to see major changes because it 
is finally working very well.
    Mr. Faleomavaega.  Well, now that we have no problems on 
the east coast, how about the west coast, Dr. Hershman.
    Dr. Hershman.  I do not believe major changes are necessary 
at all. I agree with the Commissioner very much that we have a 
program that has been 20 years in evolution now.
    It is a relatively stable program. Funding levels have gone 
up and down, but within a relatively narrow range. It has shown 
a lot of resilience to deal with new issues that have come 
along. In the 1970s, it was oil and gas. In the 1980s, it was 
restoration. In the 1990s, it is water quality. To me, it is a 
mechanism that is really working well. Keeping that structure 
in place is very important.
    The other thing that is extremely important is allowing the 
flexibility at the state level for each state or territory to 
respond in a way that is appropriate for it with some guidance 
at the national level. So, I think we are talking about fine 
tuning the Act.
    Mr. Faleomavaega.  Ms. Cooksey.
    Ms. Cooksey.  I just would like to add that in general I 
agree. I think as we move, I would like the analogy on the 
decade now that we are moving into the next millennium. I think 
we recognize that the easy tasks have been handled.
    Now, we are dealing with the more difficult decisions that 
have to be made in my opinion to be successful. You need to get 
buy-in from the local communities. That is what we are focusing 
on. We think you get more bang for the buck that way.
    Mr. Lytton.  I would agree with the other comments. Major 
surgery is not necessary. The frame work is in place. It is a 
model that works. I would also agree that we really need to do 
refinements here that would increase our ability to work more 
closely with coastal communities.
    Again, in my opinion, that is where the decisions are made 
that have perhaps the most profound impacts on our coastal 
resources. That is where we need to move in the 
reauthorization.
    Mr. Faleomavaega.  As you know, we discussed earlier, Mr. 
Park and Mr. Fote's concerns, about the PWC. Should this be 
incorporated into the CZMA in some way or somehow by the 
Congress?
    Should we put in some form of regulatory format as far as 
addressing the problems that have been addressed earlier by the 
PWCs? Should this be left entirely to the states and do not let 
the Congress do this?
    Dr. Hershman.  I would argue to leave it to the states and 
for Congress not to get involved. The reason for that is that 
it is so much a local issue. The way the draft is written at 
this stage, it requires each state to respond with rules and 
then provides definitions which I think will cause 
difficulties.
    I agree with the comment that was made earlier. The 
amendments are out of character with the National Act. The Act 
has really not included this kind of specific standard on the 
states, as many of the EPA statutes have. So, I would be 
cautious in this area.
    Mr. Saxton.  May I just ask, our motivation for doing this 
in this bill is that my experience at least has been that our 
State legislature has had a difficult time dealing with this 
issue.
    Our motive was not to do it for the states, but to try to 
provide a little extra push to make it more feasible for 
something to happen in the state legislatures. Is there a 
different way that we could go about doing this?
    Obviously, something needs to be done in order to 
facilitate the kinds of things that have been talked about here 
today to have them happen on the state level. So, we do not 
want to mandate. We do not want to burden. We do not want to 
provide for concrete types of steps to be taken.
    We want to encourage progress to be made in this area. How 
can we do that if we do not address it in this bill or in some 
other vehicle that we have at our disposal?
    Dr. Hershman.  The draft that I saw calls for requiring an 
inclusion in the program of an enforceable policy on this area 
with the definitions involved. That is a departure from the way 
the CZMA has operated in the past.
    In the past, there have been requirements to study 
particular areas, come up with an assessment of them. Certainly 
the 309 assessment process was one of those in which states 
could identify areas of particular concern and then develop 
strategies for that and there were extra funds available for 
that.
    I guess I go back to the point I made earlier, the 
initiative has always been with the state to define the 
specific problem within the broad parameters laid out in the 
Federal Act.
    I think that is one of the strengths of the program. I do 
not have an alternative to propose at this time. I would 
certainly be happy to think more about it and see if one comes 
to mind.
    Mr. Saxton.  I am sorry.
    Mr. Faleomavaega.  No, Mr. Chairman.
    I am trying to follow the Chairman's train of thought here. 
Not necessarily on a regulatory basis, but giving some sense of 
guidelines for the states to follow, but not mandating the 
states to do so because of the varieties of circumstances that 
the states are involved.
    It is too bad the National Governors Association met 
recently. Maybe the Governors among the 50 States could have 
put their heads together, come out with some kind of a 
resolution or exchange ideas or problems that maybe they cannot 
resolve at that level. I do not know.
    I just wanted to raise that question with the members of 
the panel. If we are in a position to address the issue from 
the Congress, or could this be done more effectively among the 
various states. I just wanted just to raise that issue.
    Thank you, Mr. Chairman.
    Mr. Saxton.  Thank you.
    Let me just bring up an issue that has been discussed 
throughout the testimony today. Mr. Shinn mentioned correctly 
that our State, in fact the Northeast, has made great progress 
in terms of the ocean environment.
    Ms. Cooksey also said that we have made progress, but we 
have dealt with the easy problems which she is correct about. 
Obviously when you can see a source of pollution, and fashion a 
response to the problem, and have the resources to do it with, 
then it gets done. We have done that. We have upgraded waste 
water treatment systems in the Northeast. We have prohibited 
chemical dumping in the ocean.
    We have prohibited sludge dumping in the ocean. We have 
been able to control floatables, to a large degree, in the 
Northeast. These are all problems that you can see and 
unfortunately experience from time-to-time.
    We have had the political will therefore to identify them, 
to develop the resource base to deal with them, and we have 
dealt with them. The issues that we have not been successful 
and the more difficult issues that Ms. Cooksey referred to I 
think are generally referred to as non-point sources of 
pollution.
    It is our desire to provide an incentive to deal with them 
as well on the state level. What we have done to-date has been 
moderately, I guess, successful. That is probably being 
generous.
    What do you think? Is there a way that we can better 
address this issue in CZM? If so, elaborate for us.
    Bob, would you like to start?
    Mr. Shinn.  I think that is a very thought provoking 
suggestion because what we are finding is that more and more 
the impacts, as we regulate sewage treatment plants and get 
into secondary and tertiary treatment, et cetera, where the 
investment, once you got beyond tertiary treatment to get that 
last 3 or 4 percent of treatment processes, is huge. You never 
get to 100 percent.
    We did a specific study in the Barnegat Bay on phosphorous 
and the origins of phosphorous. I think we had more than 12,000 
data points. It was more data points than we have ever had in 
any study.
    The conclusion was that 91 percent of the phosphorous was 
coming from fertilizers and pesticides relative to individual 
lawns in the Barnegat Bay system. So, I think a part of the 
mission ahead of us, if we are going to solve our non-point 
problems, is really a strong educational program.
    That needs to be in our school system. Certainly, GIS is 
something that I see a great future for in environmental 
education in school settings. I think that is a challenge that 
is hard to get our arms around as an environmental agency 
because we are not traditionally ``educators.''
    Now, we have got a mandatory curriculum in New Jersey that 
the legislature passed last year. I think that is a good first 
step. I think environmental education and knowing the 
individual's impact, we like to think of pollution as someone 
else polluting our resource.
    We like to point across the way. It is sort of we found the 
enemy and it is us. I think the secret to that is education in 
our school systems, much the way we got good buy-in for 
recycling.
    I think non-point pollution, which is sort of a little bit 
of a mysterious word generally, needs to be defined as to what 
that is and what part individuals play in that.
    When you find out it is the car you drive, and maybe some 
litter that happens inadvertently, and lack of recycling and 
the way we apply fertilizers and pesticides, and some of the 
chemicals we use, it is not recognized that the things we do 
and the drainage from our homes end up in the river, the bay, 
or the ocean.
    It is the only place they can go. So, the whole watershed 
debate is very, very interesting. If guess if you had a perfect 
world, you would go back to those 566 municipalities in New 
Jersey and design them around 96 watersheds.
    Everyone would have a lot better feeling about how their 
basin drains and a lot more recognition. Of course, that is 
impossible. Just thinking in that context leads you down a path 
that really ends up with environmental education at the end of 
this to really solve our problems in a partnership way.
    Ms. Cooksey.  I will comment just briefly. I agree with 
what the Commissioner said. However, I also think we just need 
to use every single tool we have. I think it is going to take a 
long time. I think it is going to take a lot of money to clean 
it up.
    I think we need research into treatment. We all know that 
no matter what your land use is, whether it is agricultural or 
urban, it contributes. We need to come up with something to 
implement change.
    We have books on best management practices, but I think we 
need more work in that area. I think we are going to have to 
spend money in my State for the agricultural community to help 
them along.
    We do not have enough resources right now to do it. Our 
plan is to base it on a watershed based by impact. It is going 
to be tough.
    Mr. Lytton.  Mr. Chairman, I think there are two 
contributions that the National Research Reserves can bring to 
the table on non-point pollution.
    The first is going back to our system wide monitoring 
program. We have all 25 sites as we develop our national 
system. We are developing the capability to assess change in 
water quality linked directly to land use activities within our 
watersheds.
    As we increase our understanding of the linkage between 
those changes, we can work more efficiently with our coastal 
communities to help them deal with their non-point issues.
    The second and perhaps more to the point, I agree with Mr. 
Shinn on environmental education. Research reserves do have 
professional staff that not only do environmental education for 
K-12, but we have taken on technical training as a very 
important part of our mission. Specifically, we target decision 
makers, including land use planners, the regulatory agencies 
and coastal managers that deal with non-point issues.
    It is very important that we take the science that Sarah 
was talking about and link that to the decision makers that are 
dealing with non-point. Research reserves, again, are well-
placed to help us get there.
    Mr. Saxton.  Thank you very much.
    The gentleman from American Samoa.
    Mr. Faleomavaega.  Mr. Chairman, I just want to thank the 
members of the panel for traveling such long distances to come 
and to testify in our Subcommittee this morning.
    I sincerely hope that whatever our Subcommittee will 
produce as a part of the authorization to the CZMA will be to 
their satisfaction. If not, we look forward to hearing from 
them as well.
    Thank you, Mr. Chairman.
    Mr. Saxton.  Thank you for coming long distances to be with 
us today. We appreciate it very much. We also appreciate the 
fact that you have hung in here with us for the better part of 
3 hours.
    We do not always have hearings that last this long, but 
this one was very interesting, and the part that you all played 
in helping us to understand this issue a little better is much 
appreciated.
    [The prepared statement of the NOIA may be found at the end 
of the hearing.]
    [The prepared statement of Mr. Pallone follows:]

Statement of Hon. Frank Pallone, Jr., a Representative in Congress from 
                        the State of New Jersey

    Mr. Chairman, thank you for holding this oversight hearing 
on the Coastal Zone Management Act (CZMA). I am pleased to see 
that you have invited two distinguished individuals from New 
Jersey to testify today. Tom Fote of the New Jersey Coast 
Anglers Association is respected throughout the state for his 
expertise in coastal issues. New Jersey Department of 
Environmental Protection Commissioner Robert Shinn has worked 
at the local, county, and state levels of government, and has 
devoted much of his career in public service to resource 
management.
    Congress last authorized the CZMA in 1996, and the current 
authorization expires at the end of this fiscal year. As the 
Committee works to develop a CZMA reauthorization measure, I 
want to express my hope that it reflect our strong commitment 
to the protection, enjoyment, and responsible management of our 
coast.
    As a native of the New Jersey shore, I know firsthand the 
importance of safeguarding our coastal resources. The CZMA 
gives states the resources necessary to protect the fisheries, 
wildlife, and coastal interests that are so important to our 
states' economies.
    The CZMA governs important aspects of our coastal 
resources--far too many to be included in my statement today. 
However, Mr. Chairman, I want to highlight a few that are of 
particular concern to me.
    The CZMA was amended in 1990 to incorporate the Coastal 
Nonpoint Pollution Control Program, also known as Section 6217. 
Nonpoint source pollution is one of the most significant 
sources of water pollution affecting our nation's coastal 
waters. It contributes to beach closures, threatens our 
commercial and recreational fisheries, compromises public 
health, and has an overall negative effect on coastal tourism. 
States and the Federal Government have devoted much time and 
effort into developing plans to curb contaminated runoff into 
our coastal waters. I hope today's witnesses will address the 
benefits of including a sufficiently funded Coastal Nonpoint 
Pollution Control Program in a CZMA reauthorization measure.
    Living in a coastal community has allowed me and my family 
unlimited opportunities to enjoy the shore. Sadly, the public's 
access to our nation's beaches is declining. More than twenty 
five years ago public access to the shoreline was established 
as a focal point for coastal zone management. Resource 
Management Improvement Grants under Section 306A and Coastal 
Zone Enhancement Grants under Section 309 provide funds for 
states to encourage public access. Despite substantial 
accomplishments, however, the goal of a highly accessible coast 
remains unfulfilled. I am particularly interested in learning 
more about states' efforts to enhance universal public 
coastline access and in knowing how changes to these grants 
will affect access programs.
    Finally, the use of personal watercraft is of growing 
concern. I have recently received letters from constituents 
expressing their concerns about ``jet ski'' use within inshore 
waters. I would like to hear from those closely involved in 
this issue. This relatively new form of coastal recreation 
presents many questions. What are the effects of personal 
watercraft on wildlife and fisheries? Do ``jet skis'' in fact 
detract from coastal aesthetics and add to noise pollution? 
What constitutes a ``no wake'' speed when these small craft are 
designed to skim over water at high speeds. Answers to these 
questions are needed to help us decide if we should address 
this issue in a reauthorization measure.
    In closing Mr. Chairman, thank you again for holding this 
hearing on something that is so very important to us all. I 
look forward to working with you to develop a thoughtfully 
crafted Coastal Zone Nanagement reauthorization.

    Mr. Saxton.  Thank you very much.
    The hearing is adjourned.
    [Whereupon, at 1 p.m., the Committee was adjourned.]
    [Additional material submitted for the record follows.]
  Statement of Howard Park, Consultant, Personal Watercraft Industry 
                              Association

    Thank you for the opportunity to address the Subcommittee 
today. My name is Howard Park and I represent the Personal 
Watercraft Industry Association. PWIA represents the five major 
manufacturers of personal watercraft (PWC), Arctic Cat Inc. 
based in Thief River Falls, Minnesota, Bombardier Motor Corp. 
of America, based in Melbourne, Florida, Kawasaki Motors Corp.-
USA, based in Irvine, California, Polaris Industries, Inc., 
based in Minneapolis, Minnesota and Yamaha Motor Corp.-USA of 
Cypress, California. PWC are often referred to as ``Jet Skis,'' 
Kawasaki's brand name and a trademark of that company. Three 
PWIA member companies also make motors for larger types of 
boats.
    This is the first time that I have ever testified before 
Congress. My colleagues and I have, however, testified in 
numerous states on countless occasions. We believe that 
regulation of PWC and other forms of boating belongs at the 
state and local level. Apparently, the concerns that led to 
inclusion of PWC regulation in this legislation before the 
Subcommittee originated with concerns about PWC operation in 
Barnegat Bay, in New Jersey. Prior to seeing the language of 
the bill before you, we were (and still are) in support of 
state legislation, Assembly Bill 653, to keep PWC out of 
shallow areas of Barnegat Bay. It is early in the legislative 
session in New Jersey, regardless of the outcome of the 
legislation before this Subcommittee, we would welcome the 
opportunity to work with those who are concerned with the issue 
in New Jersey.
    It has always been our position that PWC (and other 
motorized boats) should not operate in shallow waters less than 
two feet in depth. We have never opposed--and in fact support--
legislation that prohibits such operation. Our safety materials 
reflect this position. There is no basis to suggest that PWC 
should be singled out for such prohibitions. No motorized boat 
should operate in such shallow waters. Some say that only PWC 
should be prohibited from operating in shallow waters because 
only PWC can access such areas. That is simply false. Many 
types of jet-propelled boats and hovercraft, not defined as 
PWC, can access waters of two feet or less in depth.
    There has been considerable research into the effects of 
PWC, boating and other human activities on wildlife and aquatic 
vegetation. Probably the most extensive studies of this subject 
were conducted for the Florida Department of Environmental 
Protection and Oregon Ocean Policy Advisory Council. Neither 
study found any basis to single out PWC for special 
regulations.
    In addition, according to Dr. James Rodgers, a biologist 
with the Florida Game and Freshwater Fish Commission, who has 
conducted extensive research into this issue, ``A PWC moving at 
idle speed obliquely to the birds should produce the same 
flushing response as an outboard motorboat. Similarly, a fast 
moving motorboat heading directly at the birds with a deep V 
bow throwing white spray should produce a flushing response 
similar to that of a PWC being operated in a similar manner.''
    I will leave copies of several studies related to wildlife 
disturbance with Committee staff and I have a limited number of 
copies for members. In any case, our recent progress with noise 
reduction technology promises to reduce any disturbance that 
PWC operation may cause.
    Our most serious concern is that the bill would require 
that personal watercraft (PWC) be operated at no-wake speed or 
less in ``sensitive'' areas, defined as ``any area in the 
coastal zone that contains living marine resources and birds 
that may be impacted during the operation of a PWC.'' PWC 
should not be operated in areas where they have a negative 
impact on the resource--where good science supports such a 
conclusion--we have no problem with that. We believe that all 
boats should always be operated in an environmentally 
responsible manner.
    We do have a serious concern, however, with the extremely 
broad definition of ``sensitive area'' in this bill which can 
be interpreted to include any area with any marine life, even 
microscopic organisms. Thus, this bill could cover the entire 
coastal zone and all the waters within it. We are especially 
concerned that this would be interpreted by the media and the 
public as a ``ban'' on PWC operation. This would have a 
chilling effect on our industry and the rights of over 5 
million PWC owners and operators.
    We believe that the approach of segregating one type of 
vessel is unreasonable and not supported by good science.
    We know there are sincere concerns about PWC operation. The 
steps we are taking to meet these concerns include:

        <bullet> new technology introduced in the past year which 
        reduces sound emissions from PWC by 50 percent;
        <bullet> our support of mandatory education for PWC operators, 
        several states have adopted legislation based on our model;
        <bullet> tough model legislation, at the state level, to 
        regulate businesses that rent PWC;
        <bullet> under a voluntary agreement reached with the EPA, 
        spending at least tens of millions of dollars (so far) to 
        develop cleaner engines that meet or exceed EPA targets;
        <bullet> lending, free of charge, over 1,500 PWC each year to 
        law enforcement agencies to assist them in on-water enforcement 
        and rescue efforts;
        <bullet> supplying free print and video safety materials with 
        each PWC that is sold and many thousands of these materials to 
        law enforcement and education institutions;
        <bullet> supporting a minimum age of 16 for PWC operation.
    Our model legislation for regulation of PWC is tougher than 
all but a small handful of states.
    Thank you. I would like to submit several written materials 
for the record and I would be pleased to answer questions.

[GRAPHIC] [TIFF OMITTED]55183.001

[GRAPHIC] [TIFF OMITTED]55183.002

[GRAPHIC] [TIFF OMITTED]55183.003

[GRAPHIC] [TIFF OMITTED]55183.004

Statement of Marc J. Hershman, James W. Good, Tina Bernd-Cohen, Robert 
                F. Goodwin, Virginia Lee, and Pam Pogue*
---------------------------------------------------------------------------

    * Marc J. Hershman is Director and Professor, School of Marine 
Affairs, University of Washington, Seattle. James W. Good is Sea Grant 
Coastal Resource Specialist and Professor, Marine Resources Management, 
Oregon State University, Corvallis. Tina Bernd-Cohen is Coastal 
Consultant, Helena, Montana. Robert F. Goodwin is Coastal Resource 
Specialist and Affiliate Professor, Washington Sea Grant and School of 
Marine Affairs, Unversity of Washington, Seattle. Virgnia Lee is U.S. 
Program Manager, Coastal Resources Center/Rhode Island Sea Grant, 
University of Rhode Island. Pam Pogue is a Project Manager, Coastal 
Resources Center/Rhode Island Sea Grant, University of Rhode Island, 
Narragansett, RI.
---------------------------------------------------------------------------
    The Federal Coastal Zone Management Act (CZMA) was adopted 
by the U.S. Congress in 1972. It provides a national framework 
for improved state management of the coastal lands and waters 
of the nation's coastal zone.
    The Coastal Zone Management Effectiveness Study was 
undertaken between 1995 and 1997 to determine how well state 
coastal management programs in the U.S. were implementing the 
CZMA. The study was commissioned by the Office of Ocean and 
Coastal Resources Management (OCRM) within NOAA, and carried 
out through the National Sea Grant Program, also within NOAA.
    We studied five of the core objectives of the CZMA:

        protection of estuaries and coastal wetlands
        protection of beaches, dunes, bluffs and rocky shores
        provision of public access to the shore
        revitalization of urban waterfronts
        accommodation of seaport development (a coastal dependent use)
    In carrying out the study we examined systematically all of the 29 
state programs that were approved at the time, reviewed documents and 
data, and conducted interviews with state officials. We sought 
information on the governmental processes as well as ``on the-ground'' 
outcomes of the program efforts. Detailed state profiles, five national 
technical reports, and article-length summaries are on file with OCRM 
and will be on their Home Page. The articles will be published in the 
Spring of 1999 in Coastal Management journal.
    We offer three major conclusions:

    State CZM programs are effectively implementing the five CZMA 
objectives examined. However, this conclusion is based on assessment of 
the policies, processes and tools used, and on only limited outcome 
data and case examples that were available.
    For about one-third of the states there was sufficient outcome data 
to show effectiveness in protecting coastal wetlands and estuaries. If 
these states are ``representative'' of all states, then outcome data 
shows that this CZMA objective is being met.
    Beach and dune resources are being protected based on the number of 
regulatory tools in use and the upgrades to these tools over the years. 
Beach and dune protection must be balanced with pressures to provide 
recreational opportunity and to protect private property rights.
    Public access to the coast is being advanced using regulatory, 
acquisition, technical assistance and education/outreach programs. 
Roughly 455 public access-related projects were funded by coastal 
programs in the late 1980s, and an estimated 12,000 public access sites 
are available in 26 of the 29 states.
    Over 303 urban waterfront revitalization districts in the U.S. have 
benefited from CZM program funds and design assistance. On average 
these districts are halfway to full revitalization--infrastructure has 
been improved and at least one redevelopment project has been 
completed.
    Twelve ``port-active'' states, where large scale general cargo 
ports operate, use special policies and regulatory tools to expedite 
port development, including financial grants, specific port development 
zones, and expedited regulatory reviews.

    There are insufficient data for systematic, outcome-based 
performance evaluation of state CZM programs. Needed is a common set of 
outcome indicators that would link state management activities to 
national CZMA objectives.
    Outcome indicators must be developed that balance state and Federal 
perspectives. Our study suggests many possible indicators, a selected 
number of which could be adopted. For example one measure of wetlands 
protection could be the area of annual permitted loss per year as a 
percent of all regulated wetlands. A measure of beach and dune 
protection could be a count of stewardship projects induced by the CZM 
program which provide beach accessways, dune crossovers, and designated 
protected areas. And, progress in waterfront revitalization could be 
tracked through an accounting of stages reached in the revitalization 
process and the scope of CZM goals achieved.

    The time is ripe for Congress to initiate a national outcome 
monitoring and performance evaluation system. OCRM should take the lead 
in implementing the process.
    Systematic outcome monitoring, reporting and evaluation will not 
occur without external stimulus and leadership. Coastal managers are 
already over-burdened with implementation tasks and they face political 
and legal pressures administering their programs. Congressional 
leadership will encourage a common set of indicators allowing 
comparisons across states and conclusions about national performance. 
In this way on-the-ground outcomes from the national investment in CZM 
can be credibly measured.
          SUMMARIES OF THE FIVE NATIONAL STUDIES OF THE CZME*
---------------------------------------------------------------------------
    * An Overview article surmmarizing the entire study is at Hershman, 
et al., 1999.

    Protecting Estuaries and Coastal Wetlands. Good et al. (1999) found 
sufficient outcome data to make ``probable'' effectiveness 
determinations for about one-third of the states examined. Of these, 
they found that 80 percent were performing at expected or higher levels 
in protecting wetland and estuary resources considering issue 
importance and strength of processes used in the state. If these states 
can be shown to be representative, they argue, then the national 
program as a whole can be considered effective for this objective.
    Good et al. (1999) followed a four-step process in their study, 
first examining issue importance, next the potential effectiveness of 
CMPs based on process indicators, then outcome effectiveness based on 
on-the-ground outcome indicators, and finally, overall performance 
based on a comparison of outcome effectiveness with issue importance 
and potential effectiveness.
    To rate and compare the importance of estuary and coastal wetland 
protection as a CZM issue in each state, the authors chose seven issue 
importance indicators--three environmental, two social-demographic, and 
two perception-based. To them, issue importance serves as context for 
determining the level of program performance.
    Next, Good et al. (1999) defined a ``model state CMP'' for estuary 
and wetland protection based on the most important processes and tools 
identified by all the states. From the model CMP, criteria were 
developed and applied to estimate the potential effectiveness of each 
state program ``on paper.'' Potential effectiveness ratings increased 
as the state approached the model.
    Outcome indicators were defined as ``measures of on-the-ground 
protection provided by the CZM processes and tools.'' An example is the 
area of wetland compensatory mitigation required in a CZM regulatory 
program as documented in the permit process. This indicator, along with 
other measures of regulatory, planning, acquisition, and nonregulatory 
outcomes, were used to estimate outcome effectiveness. The authors 
found data sufficient to make at least ``probable'' outcome 
effectiveness determinations for just 12 of the 29 CMPs. They rated ten 
of these 12 (83 percent) as either ``effective'' or ``very effective'' 
using model-based rating criteria.
    Finally, Good et al. (1999) compare outcome effectiveness ratings 
with issue importance and potential effectiveness ratings in order to 
place program performance in the unique context of each state. To rate 
overall performance, they compare outcome effectiveness results with 
the seriousness of the problem in the state (issue importance) and with 
the ability of the state's decision-making institutions to deal with 
the issue (potential effectiveness). As they put it, this allows a 
determination of overall performance for a state that suits its 
particular situation, rather than a determination based on a ``one size 
fits all'' approach. Thus a state with a low issue importance rating is 
not held to the same standard as one that rates that issue as high.
    Protecting Beaches and Dunes. Bernd-Cohen and Gordon (1999) 
conclude, based on process indicators and case examples, that coastal 
programs are effectively addressing the goal of protecting beach and 
dune resources. To support their conclusion they cite to the wide range 
of tools in use, the progressive upgrading of these tools over the 
years, and numerous case examples of sophisticated tools now in use. 
Outcome data were inconclusive and available in only a few states.
    The authors outline 26 tools used by the states to protect beaches 
and dunes, from which they derive ten key ``process indicators of 
effectiveness.'' The majority of these indicators are regulatory, 
including controls over construction and public access where these may 
damage natural resources. They highlight one commonly used device, 
coastal setback regulations, to show its potential utility to protect 
resources and reduce hazards. However, they also point out that a 
carefully developed setback law often includes many exceptions designed 
to enhance recreation or protect private property rights. And because 
outcome data that show the results of implementation are inconclusive 
and revealed mostly in case study examples, they cannot make definitive 
conclusions about the effectiveness of setbacks, or other regulatory 
and planning devices, that are designed to protect the resources.
    Bernd-Cohen and Gordon (1998) highlight the wide range of tools in 
use, including regulatory programs, planning coupled with regulations, 
stewardship of publicly owned lands, research and public education. 
They point out that CZM programs have progressively upgraded their 
management tools to improve how they deal with development impacts and 
long-term effects. And, they present case examples that show some 
highly sophisticated tools now in use to address the technical and 
legal issues. These achievements, when viewed against the backdrop of 
conflicting policies and multiple governmental programs concerned with 
beach and dune resources, suggest to them good progress toward the 
protection goal.
    The authors believe that meaningful outcome monitoring and 
evaluation are possible for this topic area. The outcome data 
collected, though inconclusive, suggest that states are both capable 
and desirous of more rigorous documentation of results. Bernd Cohen and 
Gordon (1998) present a list of outcome effectiveness indicators that, 
if systematically monitored and reported across all states, could serve 
as the basis for a national performance evaluation system for this 
issue area.
    Providing Public Access to the Coast. Pogue and Lee (1999) conclude 
that state CZM programs are national leaders in improving access to the 
coast, first through a wide range of acquisition, regulatory and 
planning tools, and more recently through innovative technical 
assistance and public education and outreach programs.
    The authors note that the CZMA was the first Federal law to 
establish a public access policy for the U.S., and that the state CZM 
programs are in the forefront implementing this goal. States use a wide 
range of tools to achieve the goal including acquisition, regulatory 
and land use requirements, technical assistance and public education 
and outreach. The diversity of approaches is illustrated through a 
variety of case examples.
    Although hard numbers for measuring outcomes were not available, 
Pogue and Lee (1998) note that $35 million (unadjusted 1988 $$) were 
spent on 455 public access related projects between 1985 and 1988, 
roughly 12 percent of the total CZM funding available in that period. 
The authors report an estimate of over 12,000 public access sites 
available in 26 of the 29 states, though the linkage with CZM program 
actions could not be studied. The states with the most sites tend to 
have the greatest number of processes available for promoting access. 
The authors note a policy shift in the 1990s away from direct 
acquisition and regulation toward technical assistance and public 
outreach--a recognition of the overall decrease in funds available for 
access. Innovative approaches such as design standards, legal research 
and signage are highlighted. They also stress the role of CZM programs 
in balancing resource protection needs with growing public demand for 
beach recreation opportunities.
    Chief among their recommendations is that CZM programs conduct 
needs assessments to determine the kind of access needed in the future 
and where it should be located. And, due to the creativity and 
innovation used to achieve access they argue for a clearinghouse, or 
register, for documenting and sharing information on innovative tools 
and programs.
    Revitalizing Waterfronts. Goodwin (1999) found 303 urban waterfront 
districts which have benefited from state CZM programs. Districts on 
average are roughly halfway to full revitalization (infrastructure has 
been improved and at least one redevelopment project is completed). 
Fourteen coastal programs are determined to be the most effective in 
waterfront revitalization because of their on-the-ground outcomes and 
the close linkage between CZM policies, processes and the outcomes. 
Revitalization is occuring mostly in those areas of the country 
experiencing industrial change--the rust belt, the Pacific Northwest, 
and New England.
    Goodwin (1999) found that providing funds for waterfront planning 
and public improvements was considered the most important of all the 
tools used by coastal managers to revitalize waterfronts. He documents 
CZM funds of over $30 million leveraging over $430 million of non-CZM 
funds, an amount he believes is an underestimate. In addition to 
identifying funding and the wide range of additional tools used by the 
coastal management programs, he defines key process outcomes such as 
adopted waterfront revitalization plans and design studies performed to 
achieve on-the-ground outcomes. Goodwin develops an ideal waterfront 
revitalization program and determines, in a similar way to Good, et al. 
(1999), the degree to which each of the states approaches the ideal.
    Outcomes themselves were in three forms: extent of revitalization 
in the state measured by the number of districts involved; stage of 
revitalization achieved in each district; and scope of resulting on-
the-ground improvements that revitalize and achieve coastal management 
goals. For example he shows the number of districts where 
revitalization is complete, the number having reached certain 
milestones such as completed plans, infrastructure, or projects, and 
the number of districts achieving different types of uses.
    Goodwin finds that the greatest needs nationally are to formulate 
an urban waterfront data base that would describe the amount of 
waterfront revitalization that has occurred and that still remains 
unfinished, and to elevate waterfront revitalization to a national 
objective under section 309 of the CZMA.
    Accommodating Seaport Development. Hershman (1999) concluded that 
12 ``port-active'' states are effectively achieving the goal of the Act 
because of their specific policies and management tools which 
facilitate port development, and because of preliminary evidence of 
``organizational learning'' in CZM and port agencies derived from case 
studies in ten of the twelve states.
    Seaport development is one of the coastal dependent uses to which 
CZM programs are to give priority consideration. Hershman focused on 
large-scale general cargo ports because of the role they play in global 
trade and their importance to the nation, as well as the state in which 
they are located. He found that most states give port development only 
general consideration in policies and procedures, similar to any other 
coastal developer, but that twelve states stand out as ``port-active'' 
states. These states have significant port facilities from a national 
perspective (or relative to their size), and correspondingly these CZM 
programs have more specific policies and techniques to help review and 
facilitate port development. These specific tools include financial 
grants, specific port zones, expedited regulatory processes, and other 
tools.
    According to Hershman, measuring outcomes in meeting the seaport 
development goal is problematic; whether a port is built or not is 
dependent primarily on economic and locational factors. CZM can 
influence the timing, shape and manner of port development, but this 
depends on the context in every case and normally reflects other CZM 
objectives such as wetland protection or public access. He relies, 
therefore, on the notion of ``organizational learning,'' where the 
manner in which the port and CZM organizations interact to accommodate 
their mutual needs becomes a measure of effectiveness. If what they 
learn from each other results in changed objectives within each 
organization and helps resolve differences, then the port and CZM 
organization are being effective in meeting the objectives of a multi-
purpose Act like the CZMA. Through case examples he suggests that they 
are, in effect, beginning to integrate the multiple objectives of the 
CZMA within each organization.

    Bernd-Cohen, T., and M. Gordon, 1999. State coastal program 
effectiveness in protecting natural beaches, dunes, bluffs and rocky 
shores''. Coastal Management 27: ---------.
    Good, J. W. J. W. Weber, and J.W. Charland, 1999. Protecting 
estuaries and coastal wetlands through state coastal management 
programs. Coastal Management 27: ---- to ----.
    Goodwin, R. F., 1999. Redeveloping deteriorated urban waterfronts: 
The effectiveness of U.S. coastal management programs. Coastal 
Management 27: ---- to ----.
    Hershman, M. J., J. Good, T. Bernd-Cohen, R. Goodwin, V. Lee, P. 
Pogue, 1999. The effectiveness of coastal zone management in the United 
States. Coastal Management 27: ---- to ----.
    Hershman, M. J., 1999. Seaport development and coastal management 
programs: A national overview. Coastal Management 27: ---- to ----.
    Pogue, P, and V. Lee, 1999. Effectiveness of state coastal 
management programs in providing public access to the shore: A national 
overview. Coastal Management 27: ---- to ----.
                                 ______
                                 
  Statement of National Ocean Industries Association and the American 
                          Petroleum Institute
    Thank you, Mr. Chairman, members of the Subcommittee. We appreciate 
this opportunity to provide our views on reauthorization of the Coastal 
Zone Management Act (CZMA).
    This statement is being made today on behalf of the members of the 
National Ocean Industries Association (NOIA) and the American Petroleum 
Institute (API). The over 270 members of NOIA constitute the only trade 
association representing all segments of the domestic offshore oil and 
gas business, including drillers, producers, service companies and 
equipment manufacturers. The API represents over 400 companies involved 
in all aspects of the exploration, production, transportation, refining 
and the marketing of oil and natural gas.
    Together these associations represent an important and nationally 
significant marine business. A business that has provided the energy 
necessary to fuel the nation's growing economy. A business that has 
contributed significant reserves to the Federal Treasury ($5.2 billion 
FY 1997 from bonus bids, rents and royalties alone) and employs 
hundreds of thousands of American workers. In addition, it is a 
business that has conducted its operations in an environmentally 
responsible manner.
    As an important coastal and marine stakeholder, the oil and gas 
business holds significant interest in the CZMA. While we support the 
Act's goal to formulate a comprehensive and coordinated management 
program to achieve marine economic development and coastal resource 
protection, we believe improvements can be made that can benefit the 
coastal environment as well as all coastal and marine stakeholders.
    Mr. Chairman, NOIA and API testified before this Subcommittee in 
1995, during a hearing on your bill that reauthorized the CZMA (H.R. 
1965). During that hearing we raised concerns over the Act's failure to 
satisfy a key national objective to coordinate and simplify the 
``administrative procedures to ensure expedited governmental decision-
making'' for multiple-use coastal resource management.
    Our comments and experience with the timeliness of appeals for 
comprehensive federally approved plans for oil and gas exploratory 
drilling, pursuant to the Outer Continental Shelf Lands Act (OCSLA), 
proved the CZMA process is ``complex and anything but expedited.'' 
Through your leadership, Mr. Chairman, the Subcommittee responded to 
these concerns by adding much-needed statute of limitations for the 
Commerce Secretary's review. NOAA is now in the process of promulgating 
regulations to implement this streamlining measure.
    Today we would like to comment briefly on several other areas where 
we believe this Subcommittee can enhance and improve certain aspects of 
the CZMA. Highlighted below are a few recommendations. They are not 
inclusive, but rather illustrate areas where we wish to work with you 
and the Subcommittee during the 1999 CZMA reauthorization process to 
improve the implementation of the Act.

        <bullet> Federal agencies, states and the business community 
        agree that many Federal activities have only a de minimis 
        impact on coastal uses. Requiring extensive consistency 
        determinations for each and every activity regardless of the 
        significance of the environmental impacts adds undue cost and 
        resource expenses to coastal managers and Federal agencies. As 
        an example, certain Federal activities involve no more than the 
        publication of schedules or calendars of anticipated actions or 
        other like policy documents. It appears unnecessary to require 
        an extensive consistency determination for these actions.
        We suggest that the Subcommittee seek adoption of a legislative 
        solution to this matter. A process to limit the required review 
        of de minimis Federal activities similar to the categorical 
        exclusion process in the National Environmental Policy Act 
        (NEPA) may be one area to explore.
        <bullet> We endorse your suggestion to evaluate the 
        effectiveness of state coastal zone management programs and 
        their level of achievement in meeting the objectives of the 
        CZMA. We expect that such a review might find several programs 
        simply do not meet CZMA's national objective of ``priority 
        consideration for coastal dependent uses and energy facility 
        siting.''
        We recommend that you consider addition of language requiring 
        NOAA to consult with ocean and coastal stakeholders, including 
        the oil and gas exploration, marine transportation and other 
        commercial users of coastal and marine resources, as it 
        prepares such an evaluation.
        <bullet> Similarly, we suggest that the Subcommittee emphasize 
        economic development opportunities under the Act. The added 
        pressures of population and infrastructure on the coastline are 
        well documented. Given this fact, it seems the Act should 
        emphasize sound coastal multiple-use development. This might be 
        best accomplished through a better articulation of the Act's 
        national multiple-use objectives.
        <bullet> The Act offers a significant opportunity to base 
        coastal management decisions on sound science. Too often, in 
        our experience, CZMA decisions objecting to offshore oil and 
        gas operations have been made absent equal attention to 
        science, engineering capabilities and economics. The CZMA 
        should be used to link both scientific expertise, technical 
        practicability and coastal and ocean policy making. It is in 
        our collective best interest to ensure that this link is made.
        <bullet> During state CZMA reviews of oil and gas operations, 
        the states are provided with a large flow of information, 
        including environmental impact analyses already conducted under 
        NEPA and the OCSLA, and other necessary information. Working 
        with the Federal permitting authorities, the states are also 
        given opportunities for direct and detailed comment and 
        consultation during the development of this information under 
        the OCSLA process. In addition, the oil and gas business and 
        the states currently communicate on an ongoing basis with 
        respect to aspects of the operations and the regulating 
        policies of the coastal zone management plan.
        This information gathering and dissemination process is an 
        open, exhaustive, complete and costly process. We believe it 
        should not be expanded as it would result in redundancies and 
        further delays in the CZMA review process and no additional 
        understanding of the environmental impacts would be gained.
    Mr. Chairman, the members of NOIA and API appreciate this 
opportunity to comment on the Coastal Zone Management Act and look 
forward to working with you and the members of the Subcommittee as you 
prepare legislation to reauthorize the CZMA.
    Thank you.
                                 ______
                                 
         Response to questions from Rep. Eni F. H. Falemavaega
    The reauthorized Coastal Zone Management Act introduced changes to 
the structure of the grant program, incorporating Resource Management 
Improvement Grants and Coastal Zone Enhancement Grants into one 
section, Costal Community Conservation Grants.

Question

        <bullet> Does the Administration support this change? Why or 
        why not?
        <bullet> What do you see as the drawbacks and benefits to this 
        structural change? Do you think it will result in more money 
        going into on-the-ground, outcome-based projects.

Answer:

    NOAA's Office of Coastal Resource Management (OCRM) met with 
Committee staff on March 3, 1999, to discuss the latest draft of the 
bill which now differs from the version for which you requested 
comments. NOAA's views on both versions follow.
    The initial draft bill combined Resource Management Improvement 
Grants and Coastal Zone Enhancement Grants into one section, titled 
Community Conservation Grants. This combination of two very distinct 
program purposes could have posed problems for some state, territorial 
and commonwealth Coastal Zone Management (CZM) programs by forcing them 
to select between the immediate need to support high priority community 
projects versus long term program improvements.
    The revised draft bill reviewed on March 3rd no longer combines 
these sections. It establishes separate authorizations for core Coastal 
Zone Management Program Administration Grants (section 306), Coastal 
Zone Enhancement Grants (section 309), and Coastal Community 
Conservation Grants (arevised section 306A). These revisions continue 
to provide CZM Programs with the ability to address all of these 
significant issues including funding for addressing the type of on-the-
ground, outcome-based projects NOAA is seeking through the Lands Legacy 
Initiative.
    NOAA believes that Section 310, Providing for Community-Based 
Solutions for Growth Management and Resource Protection, is the 
appropriate place to accomplish the Coastal Community Conservation 
Grants instead of the revised Section 306A. Our goal is to encourage 
states to participate in coastal community conservation. By requiring a 
match as set out in the committees Section 306A, we are concerned that 
states will have difficulty participating. We have already witnessed 
the problems States encounter in raising funds to participate in the 
current Section 306 basic grants program. For that reason we urge the 
Committee not to require a match for the Community Project planning and 
include it in Section 310.
    The newly required section 309 match, however, may pose a problem 
for some CZM Programs and discourage experimentation in program 
improvement. Overall, the March 3 draft appears to meet many of the 
objectives important to NOAA.
                                 ______
                                 
                  Letter to Mr. Garcia from Mr. Young
Dear Mr. Garcia:
    Thank you for your testimony at the hearing on the Coastal Zone 
Management Act on Thursday, February 25. I have some additional 
questions regarding the Act's reauthorization. Please submit your 
written answers by March 12, so that they may be included in the record 
and also considered when the reauthorization bill comes before the full 
Committee on Resources.
    During the hearing, the final panel of witnesses agreed that the 
Coastal Zone Management Act has been successful in creating Federal-
state partnerships that work fairly well. The reauthorization bill that 
will be introduced changes the structure of the grant program, 
incorporating Resource Management Improvement Grants and Coastal Zone 
Enhancement Grants into one section, Coastal Community Conservation 
Grants. The proposed grant system requires matching funds and must be 
implemented in conjunction with a ``qualified local entity.''
        <bullet> Does the Administration support this change? Why or 
        why not?
        <bullet> What do you see as the drawbacks and benefits to this 
        structural change? Do you think it will result in more money 
        going into on-the-ground, outcome-based projects?
    Thank you for your prompt response.
    Sincerely,

Eni Faleomavaega
                                 ______
                                 
   Response to questions from Mr. Faleomavaega from Marc J. Hershman
Dear Mr. Faleomavaega:
    This letter responds to your questions about the proposal to 
combine the enhancement grants (old 309) and resource improvement 
grants (306a) portions of the CZMA into one section dealing with 
Coastal Community Conservation Grants. The intent appears to be to push 
more funds down to the local level for ``bricks and mortar'' projects 
or for specific policy or planning initiatives.
    I am concerned that many of the problems identified in Sec. 4 (b) 
of the discussion draft (CZMA99.004) require a statewide perspective 
and approach. The structure of the grants would emphasize local 
entities to the exclusion, or diminishing, of the state's role. I 
assume that states are not precluded from participating in any of these 
grants but if the Act were to emphasize the use of ``qualified local 
entities'' for implementation then it would likely result in a 
competitive grants program with insufficient state oversight and ad hoc 
implementation.
    For example, the eligible projects for which this money can be 
spent include shellfish production, access to coastal waters, 
protection of estuaries, reefs and SAV, effects of SLR, marine debris, 
plans for cumulative impacts, plans for ocean resources, plans for key 
energy and government facilities, and aquaculture. In many states these 
issues must be addressed from a state perspective because the resources 
are controlled by state agencies, the effects and impacts are of 
concern beyond the boundaries of a local government, and there is local 
competition to include or exclude the uses. In each case the state is 
needed to provide a more objective process of decision, or to propose 
solutions that are statewide in application and can benefit many local 
entities.
    I believe it would be very helpful to re-invest in the old 306a 
process and to give local governments a pot of funds for special 
``brick and mortar'' projects. But linking that mechanism with the 
broader goals of the enhancement grants program seems to mix two 
different program objectives.
    If there is a strong interest in getting more ``on-the-ground'' 
projects at the local level then I would suggest revisiting the 
enhancement objectives and writing them in a way that makes it clear 
what type of specific locally based projects would advance those 
objectives. A good example that you now have is ``providing clutch 
material'' which can enhance shellfish production.
    Thank you for the opportunity to comment.

Sincerely,
Marc J. Hershman


[GRAPHIC] [TIFF OMITTED]55183.005

[GRAPHIC] [TIFF OMITTED]55183.006

[GRAPHIC] [TIFF OMITTED]55183.007

[GRAPHIC] [TIFF OMITTED]55183.008

[GRAPHIC] [TIFF OMITTED]55183.009

[GRAPHIC] [TIFF OMITTED]55183.010

[GRAPHIC] [TIFF OMITTED]55183.011

[GRAPHIC] [TIFF OMITTED]55183.012

[GRAPHIC] [TIFF OMITTED]55183.013

[GRAPHIC] [TIFF OMITTED]55183.014

[GRAPHIC] [TIFF OMITTED]55183.015

[GRAPHIC] [TIFF OMITTED]55183.016

[GRAPHIC] [TIFF OMITTED]55183.017

[GRAPHIC] [TIFF OMITTED]55183.018

[GRAPHIC] [TIFF OMITTED]55183.019

[GRAPHIC] [TIFF OMITTED]55183.020

[GRAPHIC] [TIFF OMITTED]55183.021

[GRAPHIC] [TIFF OMITTED]55183.022

[GRAPHIC] [TIFF OMITTED]55183.023

[GRAPHIC] [TIFF OMITTED]55183.024

[GRAPHIC] [TIFF OMITTED]55183.025

[GRAPHIC] [TIFF OMITTED]55183.026

[GRAPHIC] [TIFF OMITTED]55183.027

[GRAPHIC] [TIFF OMITTED]55183.028

[GRAPHIC] [TIFF OMITTED]55183.029

[GRAPHIC] [TIFF OMITTED]55183.030

[GRAPHIC] [TIFF OMITTED]55183.031

[GRAPHIC] [TIFF OMITTED]55183.032

[GRAPHIC] [TIFF OMITTED]55183.033

[GRAPHIC] [TIFF OMITTED]55183.034

[GRAPHIC] [TIFF OMITTED]55183.035

[GRAPHIC] [TIFF OMITTED]55183.036

[GRAPHIC] [TIFF OMITTED]55183.037

[GRAPHIC] [TIFF OMITTED]55183.038

[GRAPHIC] [TIFF OMITTED]55183.039

[GRAPHIC] [TIFF OMITTED]55183.040

[GRAPHIC] [TIFF OMITTED]55183.041

[GRAPHIC] [TIFF OMITTED]55183.042

[GRAPHIC] [TIFF OMITTED]55183.043

[GRAPHIC] [TIFF OMITTED]55183.044

[GRAPHIC] [TIFF OMITTED]55183.045

[GRAPHIC] [TIFF OMITTED]55183.046

[GRAPHIC] [TIFF OMITTED]55183.047

[GRAPHIC] [TIFF OMITTED]55183.048

[GRAPHIC] [TIFF OMITTED]55183.049

[GRAPHIC] [TIFF OMITTED]55183.050

[GRAPHIC] [TIFF OMITTED]55183.051

[GRAPHIC] [TIFF OMITTED]55183.052

[GRAPHIC] [TIFF OMITTED]55183.053

[GRAPHIC] [TIFF OMITTED]55183.054

[GRAPHIC] [TIFF OMITTED]55183.055

[GRAPHIC] [TIFF OMITTED]55183.056

[GRAPHIC] [TIFF OMITTED]55183.057

[GRAPHIC] [TIFF OMITTED]55183.058

[GRAPHIC] [TIFF OMITTED]55183.059

[GRAPHIC] [TIFF OMITTED]55183.060

[GRAPHIC] [TIFF OMITTED]55183.061

[GRAPHIC] [TIFF OMITTED]55183.062

[GRAPHIC] [TIFF OMITTED]55183.063

[GRAPHIC] [TIFF OMITTED]55183.064

[GRAPHIC] [TIFF OMITTED]55183.065

[GRAPHIC] [TIFF OMITTED]55183.066

[GRAPHIC] [TIFF OMITTED]55183.067

[GRAPHIC] [TIFF OMITTED]55183.068

[GRAPHIC] [TIFF OMITTED]55183.069

[GRAPHIC] [TIFF OMITTED]55183.070

[GRAPHIC] [TIFF OMITTED]55183.071

[GRAPHIC] [TIFF OMITTED]55183.072

[GRAPHIC] [TIFF OMITTED]55183.073

[GRAPHIC] [TIFF OMITTED]55183.074

[GRAPHIC] [TIFF OMITTED]55183.075

[GRAPHIC] [TIFF OMITTED]55183.076

[GRAPHIC] [TIFF OMITTED]55183.077

[GRAPHIC] [TIFF OMITTED]55183.078

[GRAPHIC] [TIFF OMITTED]55183.079

[GRAPHIC] [TIFF OMITTED]55183.080

[GRAPHIC] [TIFF OMITTED]55183.081


</pre></body></html>
